Appendix

INDEX TO APPENDIX
Appendix A – Eighth Circuit opinion (May 22, 2020) ................................................ 1a
Appendix B – District court opinion (Mar. 31, 2017) ............................................... 21a
Appendix C – Eighth Circuit order denying panel rehearing (Oct. 8, 2020)........... 79a
Appendix D – Eighth Circuit order denying rehearing en banc (Oct. 15, 2020) ..... 81a
Appendix E – Order of the Circuit Court of Sevier County, Arkansas,
denying post-conviction relief (Feb. 1, 2010) ................................. 83a
Appendix F – Amended petition for post-conviction relief (Nov. 6, 2009) ............... 92a

Appendix A

1a

United States Court of Appeals
For the Eighth Circuit
___________________________
Nos. 17-1833/17-2380
___________________________
Mickey Thomas
lllllllllllllllllllllPetitioner - Appellee/Cross-Appellant
v.
Dexter Payne, Director,
Arkansas Department of Correction
lllllllllllllllllllllRespondent - Appellant/Cross-Appellee
____________
Appeals from United States District Court
for the Western District of Arkansas - Hot Springs
____________
Submitted: January 15, 2020
Filed: May 22, 2020
____________
Before BENTON, GRASZ, and STRAS, Circuit Judges.
____________
GRASZ, Circuit Judge.
Mickey Thomas applied for habeas relief after the Arkansas Supreme Court
affirmed his capital-murder death sentence. The district court granted Thomas partial
relief. Both Thomas and the State of Arkansas appealed. We affirm in part and
reverse in part.

2a

I. Background
Mickey Thomas was charged with capital murder after allegedly killing two
women at the Cornerstone Monument Company in DeQueen, Arkansas. Two lawyers
(“Trial Counsel”) from the Arkansas Public Defender Commission provided
Thomas’s legal defense. Ultimately, the jury found Thomas guilty of capital murder
and sentenced him to death.
Thomas appealed, but the Arkansas Supreme Court affirmed both his
conviction and sentence. Thomas v. State, 257 S.W.3d 92, 104 (Ark. 2007).
Thomas then filed a petition for postconviction relief under Arkansas Rule of
Criminal Procedure 37.5. The petition claimed, among other things, that Trial
Counsel provided ineffective assistance by “failing to properly investigate the
underlying allegations[,] . . . . failing to properly investigate and present mitigation
evidence[,] . . . . failing to properly investigate and present mental health
issues[,] . . . . [and] informing the Jury that [Thomas] was guilty or that [he] was
going to prison.” In addition, Thomas claimed the trial court violated the Sixth and
Fourteenth Amendments by refusing to draw a jury from Arkansas’s more expansive
list of registered drivers instead of its list of registered voters. The Circuit Court of
Sevier County, after reviewing Thomas’s Rule 37 petition, denied relief. For
simplicity’s sake, we will refer to the Circuit Court of Sevier County as the “Rule 37
court.”
Thomas appealed the denial of his Rule 37 petition to the Arkansas Supreme
Court. In his appeal, Thomas raised only two ineffective-assistance claims. First, he
contended Trial Counsel should have objected to the trial court’s change of venue.

-2-

3a

And second, he argued Trial Counsel should have introduced additional witness
testimony. His appeal omitted any discussion (relevant for our purposes) of Trial
Counsel’s investigation and presentation of exculpatory, mitigating, or mental-health
evidence. Nor did Thomas continue to argue that Trial Counsel provided ineffective
assistance by conceding guilt. The Arkansas Supreme Court affirmed the denial of
Thomas’s Rule 37 petition. Thomas v. State, 431 S.W.3d 923, 930 (Ark. 2014).
Turning to federal courts, Thomas then applied for relief under 28 U.S.C.
§ 2254 in the United States District Court for the Western District of Arkansas.
Thomas attempted to renew his claims that Trial Counsel provided ineffective
assistance by failing to investigate and present exculpatory, mitigating, and mentalhealth evidence.1 He also introduced new claims; for example, that Trial Counsel
provided ineffective assistance by not effectively moving for an expanded jury pool.2
As the district court pointed out, the procedural default rule was a major hurdle
for both Thomas’s guilt-and-penalty ineffective-assistance claims and his jury-pool
ineffective-assistance claim. The procedural default rule, the court explained,
typically forbids introducing new claims and resurrecting old, previously-abandoned
claims in federal habeas applications.

1

Specifically, in Claim 10-1, Thomas argues that Trial Counsel was ineffective
at presenting a mitigation case. We will refer to this claim as the “penalty-phase
ineffective-assistance claim.” In Claim 1, Thomas argues that Trial Counsel was
ineffective during the guilt phase of trial. We will refer to this claim — excepting
sub-Claim 1-1-5 (see note 2 below) as the “guilt-phase ineffective-assistance claim.”
When considering these two claims together, we will refer to them as the “guilt-andpenalty ineffective-assistance claims.”
2

This sub-Claim, numbered 1-1-5 in Thomas’s application, we will refer to as
the “jury-pool ineffective-assistance claim.”
-3-

4a

If Thomas’s claims were procedurally defaulted, he could only bring them
before a federal court if he “demonstrate[d] cause for the default and actual
prejudice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991). According to Thomas,
his lawyer in the Rule 37 proceeding (“Rule 37 Counsel”) was ineffective, which in
turn caused the procedural default. Because Thomas thought his underlying claim
was meritorious, he believed Rule 37 Counsel’s ineffectiveness prejudiced him.
Thus, Thomas maintained, he could demonstrate both cause and prejudice, which
would permit a federal court to consider his procedurally defaulted claims.
Whether Thomas could demonstrate cause depended on when he experienced
procedural default. An Arkansas prisoner applying for federal habeas relief can
“demonstrate cause for the default” by proving Rule 37 Counsel’s ineffective
assistance resulted in the failure to raise an ineffective-assistance-at-trial claim in the
initial Rule 37 proceeding. See Sasser v. Hobbs, 735 F.3d 833, 853 (8th Cir. 2013)
(following Trevino v. Thaler, 569 U.S. 413 (2013)). But an applicant cannot
demonstrate cause for default by proving ineffective assistance resulted in the failure
to appeal a Rule 37 court’s ruling on an ineffective-assistance-at-trial claim.
Martinez v. Ryan, 566 U.S. 1, 16 (2012). Thomas’s argument — that Rule 37
Counsel’s ineffectiveness caused the procedural default — therefore turned on
whether the procedural default was triggered at the initial Rule 37 proceeding or on
its subsequent appeal.
The parties briefed and argued their respective positions on procedural default
before the district court, which concluded procedural default was triggered at the
initial Rule 37 proceeding. As the district court explained, while “evidence presented
at the [Rule 37] hearing possibly skimmed the issues,” Thomas’s Rule 37 petition set
forth only “bare bones, boilerplate allegations.” This, when coupled with the Rule
37 court’s finding that Thomas “introduced no evidence in support of [his] claims,”
led the district court to hold that Thomas never really claimed ineffective-assistance

-4-

5a

for guilt-and-penalty investigation and presentation in the first place. Therefore, the
district court concluded, the failure to raise the guilt-and-penalty ineffectiveassistance claims in the first instance (and not the failure to appeal their rejection)
triggered the procedural default.
Under the district court’s analysis, if Thomas could show Rule 37 Counsel
provided ineffective assistance by failing to properly raise the guilt-and-penalty
ineffective-assistance claims, and Thomas was prejudiced thereby, it could excuse
procedural default. Citing the Supreme Court’s Trevino decision, the district court
provided Thomas an opportunity to demonstrate cause and prejudice by expanding
the record and holding a hearing. See 569 U.S. at 429. But the district court only
allowed Thomas to argue some of his procedurally-defaulted claims at the hearing.
Many of his claims, the district court found, were not “potentially meritorious,”
including the jury-pool ineffective-assistance claim. The district court therefore
refused to consider them.
During the hearing, Thomas introduced mitigation and mental-health evidence
not previously introduced at the trial or the Rule 37 proceedings. The district court,
after viewing this evidence and extensive live testimony, concluded that Thomas was
not prejudiced by Trial Counsel’s alleged shortcomings during the trial’s guilt phase.
However, it found that Trial Counsel was “dysfunctional and disjointed” and “failed
to conduct a thorough investigation with respect to mitigation.” Given the evidence
introduced at the federal hearing, the district court found a “reasonable probability”
the jury would have sentenced Thomas to life imprisonment rather than death, if only
Trial Counsel had conducted a constitutionally adequate mitigation investigation and
presentation.
The district court also found Thomas’s Rule 37 Counsel ineffective. It
concluded Rule 37 Counsel’s ineffectiveness caused the procedural default by failing

-5-

6a

to raise the guilt-and-penalty ineffective-assistance claims in the initial Rule 37
proceedings. And because Trial Counsel provided ineffective assistance with respect
to Thomas’s mitigation case, Rule 37 Counsel’s failure prejudiced Thomas.
Therefore, the district court held, Thomas had shown both cause and prejudice for his
failure to raise the penalty-phase ineffective-assistance claim; he could bring it in
federal court. Because Trial Counsel was ineffective at mitigation, the court
continued, relief was appropriate. The state must either re-try the penalty phase of
Thomas’s trial, or else it must stipulate to a life sentence.
Both Thomas and the state appeal the district court’s order. Thomas maintains
that Trial Counsel was ineffective during both the guilt phase of the trial and the
penalty phase. He also appeals the district court’s rejection of his jury-pool
ineffective-assistance claim, requesting a federal hearing. Finally, he asks for a
hearing on a dismissed guilt-phase sub-claim in light of the Supreme Court’s recent
McCoy v. Louisiana decision. 138 S. Ct. 1500 (2018). The state resists each of these
arguments and further maintains that Trial Counsel provided constitutionally
adequate assistance in its investigation and presentation of Thomas’s mitigation case.
II. Analysis
A. Guilt-and-Penalty Ineffective Assistance
The district court found that Trial Counsel’s inadequate preparation for the
penalty phase of the trial deprived Thomas of his Sixth Amendment rights. See U.S.
Const. amend. VI (“In all criminal prosecutions, the accused shall enjoy the right . . .
to have the Assistance of Counsel for his defence.”). “On appeal from a district
court’s grant of a habeas petition, we review the district court’s findings of fact for

-6-

7a

clear error, and its conclusions of law de novo.” Escobedo v. Lund, 760 F.3d 863,
868 (8th Cir. 2014).
We begin our analysis with the issue of procedural default.3 Under the doctrine
of procedural default, “a federal court will not review the merits of claims, including
constitutional claims, that a state court declined to hear because the prisoner failed
to abide by a state procedural rule.” Martinez, 566 U.S. at 9. In such cases, the state
court’s judgment “rests on independent and adequate state procedural grounds,” and
we therefore cannot grant relief. Coleman, 501 U.S. at 730; see also 28 U.S.C.
§ 2254(a) (federal courts “shall entertain an application for a writ of habeas corpus
in behalf of a person in custody pursuant to the judgment of a State court only on the
ground that he is in custody in violation of the Constitution or laws or treaties of the
United States.”).4
In limited circumstances, however, procedural default can be excused. If “the
prisoner can demonstrate cause for the default and actual prejudice as a result of the

3

The state did not press the procedural default issue on appeal. But the parties
knew procedural default was in play and had opportunity to present their positions.
We can therefore address the issue. See Dansby v. Hobbs, 766 F.3d 809, 824 (8th
Cir. 2014).
4

In Thomas’s case, the application of the procedural default rule intersects with
the exhaustion requirement mentioned in 28 U.S.C. § 2254(b)(1)(A). If the state
“court to which the petitioner would be required to present his claims in order to meet
the exhaustion requirement would now find the claims procedurally barred . . . . there
is a procedural default for purposes of federal habeas.” Coleman, 501 U.S. at 735 n.1.
And “[a] habeas petitioner who has defaulted his federal claims in state court meets
the technical requirements for exhaustion; there are no state remedies any longer
‘available’ to him.” Id. at 732 (citing 28 U.S.C. § 2254(b)). Thus, we focus on
procedural default, and not exhaustion, in our analysis.

-7-

8a

alleged violation of federal law, or demonstrate that failure to consider the claims will
result in a fundamental miscarriage of justice,” then federal courts may consider the
procedurally defaulted claim. Coleman, 501 U.S. at 750.
The district court found Thomas’s guilt-and-penalty ineffective-assistance
claims were procedurally defaulted. And in this respect, we agree with the district
court. Where we depart from the district court, however, is when Thomas
procedurally defaulted his claims. This difference ultimately determines whether the
procedural default can be excused.
According to the district court, Thomas failed to properly raise his guilt-andpenalty ineffective-assistance claims in his initial Rule 37 proceeding. In effect, the
district court concluded, Thomas never actually raised those claims to the Rule 37
court in the first place. Relying on our Flieger v. Delo decision, the district court
explained that Thomas’s failure to present both the factual and legal premises of the
guilt-and-penalty ineffective-assistance claims at the initial Rule 37 proceeding led
to procedural default. 16 F.3d 878, 884–85 (8th Cir. 1994).
The district court erred in its analysis. Procedural default occurs when “a state
court decline[s] to hear [a claim] because the prisoner failed to abide by a state
procedural rule.” Martinez, 566 U.S. at 9. But the Rule 37 court did not decline to
hear Thomas’s guilt-and-penalty ineffective-assistance claims. Rather, the Rule 37
court clearly ruled on the merits of the claim: it found that Thomas’s “[trial] attorneys
did in fact adequately investigate the issues petitioner cites.” And the Rule 37 court’s
statement that Thomas “introduced no evidence” to support his claims does not

-8-

9a

indicate a failure to “abide by a state procedural rule.” Id. The lack of evidence
simply speaks to the weakness of Thomas’s claims on the merits.5
An analysis of Flieger illustrates the district court’s mistake. In Flieger, the
applicant made a generic ineffective-assistance claim in his initial state
postconviction proceeding, coupled with a few specific allegations of ineffective
assistance. 16 F.3d at 884–85. After the state court denied postconviction relief, the
applicant raised new ineffective-assistance allegations to the federal district court that
he had not previously raised before the state court. Id. The federal district court
rejected these claims as procedurally barred. Id. On appeal, the applicant claimed his
purportedly defaulted allegations were implicit in the original, generic ineffectiveassistance claim. Id. We disagreed. The applicant’s generic ineffective-assistance
claim in state court did not “immunize[] his federal habeas claim’s specific variations
from the effects of the state’s procedural requirements.” Id. at 885. Without
presenting “both the factual and legal premises” of his claims to the state court, the
applicant could not expect to avoid procedural default. Id. at 884 (emphasis omitted).

5

By concluding that Thomas never adequately raised his guilt-and-penalty
ineffective-assistance claims in the initial Rule 37 proceeding, the district court
avoided applying the deferential standards provided by the Antiterrorism and
Effective Death Penalty Act (“AEDPA”). See 28 U.S.C. § 2254(d) (imposing
deferential standards when an applicant’s claim was previously “adjudicated on the
merits in State court”). It appears that § 2254(d) would, in fact, apply given the facts
outlined above. See Johnson v. Williams, 568 U.S. 289, 293 (2013) (requiring federal
courts to presume, absent contrary evidence, that a denial of relief is made “on the
merits”). But because we can resolve the ultimate issue of Thomas’s guilt-andpenalty ineffective-assistance claims without invoking these deferential standards, we
will forgo such an analysis.

-9-

10a

In other words, the state court in Flieger never ruled on the applicant’s specific
ineffective-assistance claim, because the applicant never presented the specific claim
in the first place. Compare that with Thomas’s case. Thomas presented the Rule 37
court with ten different, specific, ineffective-assistance-at-trial allegations. In
particular, he claimed “[t]rial counsel was ineffective for failing to properly
investigate the underlying allegations[,] . . . . failing to properly investigate and
present mitigation evidence[,] . . . . [and] failing to properly investigate and present
mental health issues.” And Rule 37 Counsel specifically questioned Trial Counsel
about the scope of the mitigation and mental health investigation. He asked about the
records Trial Counsel obtained and failed to obtain, the scope of the investigation into
Thomas’s background, and the results of Thomas’s mental health and competency
evaluations. Trial Counsel also testified about the number and identity of the
witnesses called during Thomas’s mitigation case.6 In short, the specific ineffectiveassistance-at-trial allegations were presented to the Rule 37 court, and the court
provided a determination on the merits. The weakness of support for the claims in
the Rule 37 petition and hearing has no bearing on whether the claims were actually
presented, much less whether the state court’s “judgment rests on a state procedural
bar.” Harris v. Reed, 489 U.S. 255, 263 (1989).
Thus, no procedural default was triggered in the initial Rule 37 proceedings.
However, procedural default was triggered by Thomas’s failure to appeal the Rule 37
court’s ruling on the guilt-and-penalty ineffective-assistance claims. Fink v. State,
658 S.W.2d 359, 360 (Ark. 1983) (“Issues not argued on appeal are considered
abandoned.”). To reiterate: it was not Thomas’s failure to raise the guilt-and-penalty

6

We do not question the district court’s finding that the Rule 37 petition
contained “bare bones, boilerplate allegations,” or that Rule 37 Counsel only
“skimmed” the issues at the Rule 37 hearing.

-10-

11a

ineffective-assistance claims that triggered procedural default, because he did, in fact,
raise them. Rather, it was his failure to appeal that resulted in the default.
Because the guilt-and-penalty ineffective-assistance claims were procedurally
defaulted, we will only consider them if Thomas can “demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.” Coleman, 501 U.S. at 750. And this is why the timing of
procedural default matters. Under the Supreme Court’s Trevino decision,
postconviction counsel’s “ineffectiveness, if proved, establishes ‘cause for any
procedural default [Thomas] may have committed in not presenting these claims to
the [Arkansas] courts in the first instance.’” Sasser, 735 F.3d at 853 (emphasis
added) (quoting Williams v. Taylor, 529 U.S. 420, 444 (2000)). But the Trevino rule
“does not concern attorney errors in other kinds of proceedings, including appeals
from initial-review collateral proceedings, second or successive collateral
proceedings, and petitions for discretionary review.” Martinez, 566 U.S. at 16
(emphasis added). Because Thomas’s procedural default occurred by failing to
appeal the Rule 37 court’s ruling, Thomas’s Rule 37 Counsel’s ineffectiveness, if
proven, does not constitute cause for the default. Nor can Thomas show that, without
a federal hearing, a fundamental miscarriage of justice would occur; to do so, he
would have to establish by a preponderance of the evidence that “no reasonable juror
would have found [him] guilty beyond a reasonable doubt.” Schlup v. Delo, 513 U.S.
298, 327 (1995). And given the strength of the state’s case against Thomas, we
remain sufficiently confident in the result of his trial. Cf. House v. Bell, 547 U.S. 518,
537 (2006). We therefore conclude that habeas relief cannot be granted on his guiltand-penalty ineffective-assistance claims. See 28 U.S.C. § 2254(a).7
7

We therefore need not address how Trevino interacts with AEDPA’s
procedural hurdle forbidding federal courts from holding hearings in most

-11-

12a

B. Jury-Pool Ineffective Assistance
We next consider Thomas’s argument that Trial Counsel was ineffective by
failing to promptly and adequately move for an expanded jury pool. This claim
parallels one raised by Thomas in the Rule 37 proceeding: that the trial court violated
the Sixth and Fourteenth Amendments by failing to draw the jury from an expanded
jury pool, as Arkansas law permits. See Ark. Code Ann. § 16-32-301(a). But insofar
as Thomas failed to raise “both the factual and legal premises” of his jury-pool
ineffective-assistance claim to the Rule 37 court, the claim is procedurally defaulted.
Flieger, 16 F.3d at 884 (emphasis omitted); Frazier v. State, 482 S.W.3d 305, 309
(Ark. 2016) (“This court will not consider new matters not raised in the Rule 37
petition for the first time on appeal, unless they are so fundamental as to void the
conviction.”).
As discussed above, Thomas’s procedural default can be excused if he “can
demonstrate cause for the default and actual prejudice as a result of the alleged
violation of federal law, or demonstrate that failure to consider the claims will result
in a fundamental miscarriage of justice.” Coleman, 501 U.S. at 750. Under Trevino
and Sasser, ineffective assistance of Arkansas postconviction relief counsel, if

circumstances when an applicant fails to develop a claim in state court. See 28 U.S.C.
§ 2254(e)(2). We simply note the tension in the case law revealed by the district
court’s decision to hold a Trevino hearing. Compare Holland v. Jackson, 542 U.S.
649, 653 (2004) (“Attorney negligence . . . is chargeable to the client and precludes
relief unless the conditions of § 2254(e)(2) are satisfied.”), and Williams v. Norris,
576 F.3d 850, 860–63 (8th Cir. 2009) (explaining that it is “reversible error” to hold
a hearing for a § 2254 applicant’s claims that he failed to raise in state court), with
Sasser, 735 F.3d at 854–55 (indicating that, under Trevino, counsel’s ineffectiveness
permits an applicant to avoid the requirements of § 2254(e)(2)).

-12-

13a

proven, can constitute cause for failing to raise an ineffective-assistance-at-trial claim
in an initial Rule 37 proceeding. Sasser, 735 F.3d at 853.
According to Thomas, Trevino entitles him to a federal hearing on his
procedurally defaulted (but potentially excused) jury-pool ineffective-assistance
claim. He is mistaken. A procedurally defaulted claim must be “substantial” for the
default to be excused — that is, the claim must have “some merit.” Martinez, 566
U.S. at 14. A federal court may “evaluate whether claims of ineffective-assistance
are ‘substantial’ or ‘potentially meritorious’” when determining whether a hearing is
warranted. Dansby v. Hobbs, 766 F.3d 809, 834 (8th Cir. 2014); see also Schriro v.
Landrigan, 550 U.S. 465, 473 (2007) (explaining that “the decision to grant an
evidentiary hearing” remains within the “sound discretion of district courts”). Thus,
even if an applicant alleges that his counsel’s ineffectiveness caused him to omit an
ineffective-assistance-at-trial claim in his initial-review postconviction proceeding,
a district court may still deny a hearing if it finds the claim not “substantial” or
“potentially meritorious.” Dansby, 766 F.3d at 834. And that’s what the district
court did in Thomas’s case.
To see why Thomas’s claim was not potentially meritorious, consider what
Thomas must prove for his claim to succeed. To show cause for procedural default,
he must show that Rule 37 Counsel provided ineffective assistance under Strickland
v. Washington, 466 U.S. 668 (1984). Doing so would require showing that, by failing
to raise a jury-pool ineffective-assistance claim, Rule 37 Counsel fell below the
constitutional standard of competence and prejudice resulted. Id. at 688, 694. To
show prejudice, Thomas would have to establish “a reasonable probability that, but
for counsel’s unprofessional errors, the result of the [Rule 37] proceeding would have
been different.” Id. at 694. Showing prejudice would thus require establishing the
merits of the underlying jury-pool ineffective-assistance claim. That is, Thomas

-13-

14a

would have to establish that Trial Counsel fell below the constitutional standard of
competence and — again — prejudice resulted. Id.
So, at bottom, Thomas must establish a reasonable probability that, but for
Trial Counsel’s failure to properly move for an expanded jury pool, the jury would
not have sentenced him to death. See id. He assumes the increased availability of
black jurors would have resulted in a jury less inclined to impose the death sentence.
But such assumptions have no place in a Strickland prejudice inquiry. Rather, when
reviewing prejudice, we must consider “the totality of the evidence before the judge
or jury.” Id. at 695. In this case, the evidence presented before either jury —
Thomas’s actual jury or his desired, hypothetical one — is the same. See id. at
695–96 (“Some of the factual findings will have been unaffected by the errors . . . .
Taking the unaffected findings as a given . . . a court making the prejudice inquiry
must ask if the defendant has met the burden of showing that the decision reached
would reasonably likely have been different absent the errors.”). And as the district
court rightly reported, there was “overwhelming evidence against Thomas on the
elements of capital murder and the aggravating factors supporting the death
sentence.”
At the same time, our prejudice inquiry “should proceed on the assumption that
the decisionmaker is reasonably, conscientiously, and impartially applying the
standards that govern the decision.” Id. at 695. The inquiry “should not depend on
the idiosyncracies of the particular decisionmaker, such as unusual propensities
toward harshness or leniency.” Id. And even if these factors “may actually have
entered into counsel’s selection of strategies and, to that limited extent, may thus
affect the performance inquiry, they are irrelevant to the prejudice inquiry.” Id.
Thomas is therefore asking us to make the assumption forbidden by Strickland: that
he was prejudiced by a jury who, by virtue of the pool they were drawn from, had a
propensity toward harshness.

-14-

15a

Thomas, like all criminal defendants, was entitled to a jury “selected from a fair
cross section of the community.” Duren v. Missouri, 439 U.S. 357, 359 (1979). But
as the Arkansas Supreme Court pointed out, Thomas “failed to prove any systematic
exclusion of black people from the jury-selection process.” Thomas, 257 S.W.3d at
99. We have previously held that a petitioner’s failure to show an unconstitutional
jury selection process “precludes a finding of prejudice springing from ineffective
assistance.” Wharton-El v. Nix, 38 F.3d 372, 377 (8th Cir. 1994); see also Phea v.
Benson, 95 F.3d 660, 662 (8th Cir. 1996) (“[B]ecause [applicant] has not
demonstrated that the composition of the jury violated the requirements of the Sixth
Amendment, counsel was not ineffective for failing to object.”). The same principle
applies here: because Thomas got a constitutionally adequate jury, he was not
prejudiced.8 The district court did not err in denying Thomas a hearing for his jurypool ineffective-assistance claim.
C. McCoy Sixth Amendment Violation
Finally, Thomas contends Trial Counsel violated the Sixth Amendment by
telling the jury, in his opening argument, that Thomas had killed the victims and was
“going to the penitentiary.” Under McCoy v. Louisiana, Thomas explains, a criminal
defendant has the right to veto his attorney’s decision to make such concessions at
8

Moreover, even if his argument were permissible, Thomas would also have to
establish a probability that the trial court would have granted a motion to expand the
jury pool. We doubt he could meet this burden. Trial Counsel did, in fact, move for
an expanded jury pool, but was unable to provide demographic data supporting the
argument until trial was underway. Yet the trial court recognized the force of the
argument before denying the motion. See Thomas, 257 S.W.3d at 99 (“[T]he trial
court did not err by denying [Thomas’s] motion to expand the jury pool.”).

-15-

16a

trial. 138 S. Ct. at 1505. While Thomas’s federal habeas application alleged
ineffective assistance and structural error based on Trial Counsel’s concessions,
McCoy was not decided until after the district court denied relief on this claim.
Thomas now asks us to revisit his concession-based claim in light of McCoy and
order a hearing so he can prove Trial Counsel made concessions against his expressed
wishes.
The parties debate whether and to what extent Thomas raised this claim in state
court, and in turn dispute whether we can order a hearing. Thomas raised a
concession-based ineffective-assistance claim in his Rule 37 petition, and the Rule
37 court denied relief. Thomas did not appeal this decision. As such, if Thomas’s
present claim is essentially the same claim as the one he raised in state court (even in
light of the McCoy decision), we cannot order a hearing or grant relief. By failing to
appeal the Rule 37 court’s decision, the claim is procedurally defaulted and cannot
be excused under Trevino. Martinez, 566 U.S. at 16 (refusing to apply the Trevino
rule to appeals from initial-review collateral proceedings). Moreover, the Rule 37
court’s adjudication of the concession-based ineffective-assistance claim on the
merits — i.e., that Trial Counsel’s concessions did not violate Strickland — was
reasonable and is therefore unreviewable. See 28 U.S.C. § 2254(d) (forbidding
federal habeas relief on claims reasonably adjudicated on the merits by a state court);
see also Greene v. Fisher, 565 U.S. 34, 39 (2011) (explaining that the reasonableness
of a state court’s legal analysis under § 2254(d)(1) is typically determined by the
then-existing Supreme Court precedent); cf. Holder v. United States, 721 F.3d 979,
988–90 (8th Cir. 2013) (finding no Strickland violation when trial counsel
strategically conceded “all-but-indisputable” act requirements).
To avoid this result, Thomas says he never brought the present claim before the
Rule 37 court in the first place. In his federal habeas application, Thomas explains,

-16-

17a

he argued that Trial Counsel’s concessions constituted “structural error,” triggering
a presumption of prejudice and a violation of the Sixth Amendment. It was precisely
this kind of presumptively-prejudicial structural error that the Supreme Court would
later identify in McCoy. 138 S. Ct. at 1511. But no such presumptively-prejudicial
structural error (“McCoy-type claim”) was alleged in the initial Rule 37 petition.
Rather, the Rule 37 petition simply accused Trial Counsel of violating Strickland
when informing the jury that Thomas was guilty and was going to prison. The two
claims, Thomas maintains, are different. And by failing to raise the McCoy-type
claim in the Rule 37 petition, the McCoy-type claim was procedurally defaulted ab
initio. Under Trevino, Thomas reminds us, postconviction counsel’s “ineffectiveness,
if proved, establishes ‘cause for any procedural default [Thomas] may have
committed in not presenting [this] claim[] to the [Arkansas] courts in the first
instance.” Sasser, 735 F.3d at 853 (emphasis added) (quoting Williams, 529 U.S. at
444). A hearing is therefore necessary, Thomas argues, so he can establish cause for
procedural default.
But even if we assume many key premises of Thomas’s argument,9 he is not
entitled to a hearing. Ultimately, for us to excuse procedural default, Thomas must
show “actual prejudice.” See Coleman, 501 U.S. at 750. In other words, he must
show a reasonable probability that, but for Rule 37 Counsel’s failure to raise the

9

We may assume, without deciding or commenting on the merits of, the
following propositions: (1) Thomas’s present claim is legally and factually distinct
from the one raised in state court; (2) Rule 37 Counsel fell below the constitutional
standard of competence by failing to present this claim in state court; (3) a McCoytype claim does not require a showing of Strickland prejudice; (4) the restrictions on
habeas hearings articulated in § 2254(e)(2) do not apply to Thomas’s present claim;
and (5) Trial Counsel actually violated the principles articulated in McCoy by
conceding guilt against Thomas’s expressed wishes.

-17-

18a

McCoy-type claim in the Rule 37 petition, he would have been granted relief by the
Rule 37 court. See Fischetti v. Johnson, 384 F.3d 140, 155 (3d Cir. 2004) (applying
Strickland’s prejudice standard in a default-by-ineffective-assistance “actual
prejudice” inquiry); Reed v. United States, 106 F.3d 231, 236 (8th Cir. 1997) (calling
Strickland’s prejudice standard an “actual prejudice” standard); see also Sawyer v.
Whitley, 505 U.S. 333, 345 & n.13 (1992) (analogizing Coleman’s “actual prejudice”
standard to Strickland’s prejudice standard).
Thomas cannot meet this burden. At the time of the Rule 37 hearing, McCoy
had not yet been decided.10 The leading case then was Florida v. Nixon, which held
that trial counsel’s concessions do not constitute presumptively-prejudicial structural
error when the defendant is indifferent about trial strategy. 543 U.S. 175, 179, 191
(2004) (“Counsel therefore may reasonably decide to focus on the trial’s penalty
phase, at which time counsel’s mission is to persuade the trier that his client’s life
should be spared.”); see also Malcom v. Houston, 518 F.3d 624, 627 (8th Cir. 2008)
(explaining that we “rarely presume prejudice in ineffective assistance of counsel
cases”). And, in Thomas’s case, Trial Counsel had notes from the eve of trial
indicating that Thomas had no problem admitting he was guilty of “something but not
capital murder.”
It is highly unlikely that the Rule 37 court would have found Trial Counsel’s
concessions one of the “rare” instances of presumptively-prejudicial structural error,
especially in light the Supreme Court’s Nixon decision. See Malcom, 518 F.3d at
627. Rather, under Nixon, the Rule 37 court would not have presumed prejudice; it

10

Thomas does not argue that McCoy applies retroactively; he simply argues
the principles underlying the McCoy decision were in place at the time of his trial and
should be applied to his case.

-18-

19a

would have applied the Stickland standard, which would require Thomas to establish
both that Trial Counsel, by conceding guilt, fell below the constitutional standard of
competence and that prejudice resulted. Nixon, 543 U.S. at 192 (requiring application
of Strickland); see also State v. Fudge, 206 S.W.3d 850, 858 n.2 (Ark. 2005) (“There
is no presumption of deficiency or prejudice under Strickland even to a concession
of guilt on the capital-murder charge itself[.]”). And it is equally unlikely that the
Rule 37 court would have found Trial Counsel’s concessions violated Strickland.
After all, as the Rule 37 court held in Thomas’s similar (but purportedly distinct)
concession-based ineffective-assistance claim, Trial Counsel’s decision to concede
guilt was a tactical decision made in the face of overwhelming evidence, and was
neither “grounds for finding counsel to be ineffective” nor prejudicial. We therefore
do not find it likely that the Rule 37 court would have granted relief on the McCoytype claim.
To summarize: Thomas’s McCoy-type claim is procedurally defaulted. We
cannot excuse the default, because the default can only be excused if Thomas can
establish a reasonable probability that relief would have been granted had Rule 37
Counsel raised the claim. Under the then-existing Nixon framework, it is not
reasonably probable that relief would have been granted. So even if Thomas could
prove Trial Counsel violated McCoy, he still would not be entitled to relief. As such,
a federal hearing is not appropriate. Schriro, 550 U.S. at 474.
III. Conclusion
Thomas’s procedural default on his guilt-and-penalty ineffective-assistance
claims cannot be excused. Therefore we reverse the district court’s grant of relief
with respect to his penalty-phase ineffective-assistance claim, and we affirm the
district court’s denial of relief with respect to his guilt-phase ineffective-assistance

-19-

20a

claim. Likewise, we affirm the district court’s denial of a hearing and of relief for
Thomas’s jury-pool ineffective-assistance claim. Finally, we reject Thomas’s request
for a hearing under McCoy.
______________________________

-20-

Case 6:14-cv-06038-TLB Document 124

Appendix B

Filed 03/31/17 Page 1 of 58 PageID #: 5716

21a

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
HOT SPRINGS DIVISION

MICKEY THOMAS, JR.
V.

PETITIONER
CASE NO. 6:14-CV-6038

WENDY KELLEY, Director,
Arkansas Department of Correction

RESPONDENT

MEMORANDUM OPINION AND ORDER
Mickey Thomas, Jr. is an inmate in the Arkansas Department of Correction under
a death sentence for the 2004 murders of Donna Cary and Mona Shelton. Thomas has
petitioned this Court for a writ of habeas corpus pursuant to 28 U.S.C. ' 2254.
I. Procedural History
On September 28, 2005, following a jury trial in Pike County, Arkansas, Thomas
was convicted of the murders of Donna Cary and Mona Shelton and was sentenced to
death. Thomas appealed his convictions to the Arkansas Supreme Court, setting forth
the following grounds for reversal on appeal:
1. That the trial court erred by transferring the trial to a county with a substantially
smaller population of persons of Thomas’s race;
2. That the trial court erred in failing to grant Thomas’s motion to expand the jury
pool;
3. That the Arkansas death-penalty sentencing scheme is unconstitutional
because it fails to guide the jury in the exercise of its discretion during
sentencing, or, alternatively, the statutory scheme, as applied in Thomas’s
case, violated his rights under the Eighth and Fourteenth Amendments;
4. That the trial court erred by failing to grant Thomas’s motions to prohibit victimimpact evidence;
1

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 2 of 58 PageID #: 5717

22a

5. That the trial court abused its discretion in refusing to grant Thomas’s requests
for a continuance;
6. That the trial court erred by giving a jury instruction which imposed a nonstatutory burden on Thomas to prove that mitigating circumstances “probably
exist.”
In a published opinion, Thomas v. State, 257 S.W.3d 92 (Ark. 2007), the Arkansas
Supreme Court affirmed the convictions. Thomas petitioned the Supreme Court of the
United States for a writ of certiorari, which was denied in Thomas v. Arkansas, 552 U.S.
1025 (2007).
Following denial of certiorari, attorney Jeff Harrelson was appointed to represent
Thomas in state post-conviction proceedings. Thomas filed a petition for post-conviction
relief, pursuant to Arkansas Rule of Criminal Procedure 37.5, in the Circuit Court of Sevier
County, Arkansas. After an evidentiary hearing, the circuit court denied relief on the Rule
37.5 petition.
Thomas appealed to the Supreme Court of Arkansas arguing that the circuit court=s
order denying relief should be reversed for the following reasons:
1.

Because he was denied the effective assistance of counsel when his trial
counsel failed to object to the trial court=s change of venue to Pike County,
which has a substantially smaller population of African Americans; and

2.

Because he was denied the effective assistance of counsel when his trial
counsel failed to introduce the testimony of Lt. Alex Mathis at trial, or at least
offer his transcribed testimony from a pre-trial hearing to rebut an inference
that Thomas may have contemplated raping or sexually assaulting the
victims because he possessed a condom and twine when he was arrested.

The Supreme Court of Arkansas denied relief, rejecting Thomas=s arguments.
See Thomas v. State, 431 S.W.3d 923 ( Ark. 2014).
2

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 3 of 58 PageID #: 5718

23a

Thomas then filed a petition for writ of habeas corpus relief pursuant to 28 U.S.C.
' 2254 in this Court, and ultimately amended that petition on April 29, 2014. (Petition,
Doc. 2; Amended Petition, Doc. 9). Following an expansion of the record with respect to
Thomas’s ineffective assistance of counsel claims (Order, Doc. 35) and an initial Case
Management Hearing, the Court determined that an evidentiary hearing was appropriate
under Martinez v. Ryan, 132 S.Ct. 1309 (2012) and Trevino v. Thaler, 133 S.Ct. 1911
(2013) with respect to the claims set forth in Appendix A. (Orders, Doc. 39, 40). An
evidentiary hearing was held the week of January 30, 2017. The instant order is in
response to Thomas=s amended petition, the Respondent’s answer to the amended
petition, the parties’ subsequent pleadings, and the evidence presented in the evidentiary
hearing.
For the reasons set forth below, the Court GRANTS IN PART the Amended
Petition with respect to Issue 10-1, and DENIES IN PART the Amended Petition with
respect to all other claims.
II. Facts
In adjudicating Thomas=s direct appeal, the Supreme Court of Arkansas set forth
Pursuant to 28 U.S.C. ' 2254(e)(1), Aa

a summary of the presented evidence.

determination of a factual issue made by a State court shall be presumed to be correct.@
Although this presumption may be rebutted by Thomas, the Court finds that Thomas has
not done so. Thus, as determined by the Supreme Court of Arkansas, certain facts are
as follows:
On June 14, 2005, DeQueen Police found the bodies of two women at
Cornerstone Monument Company after receiving a call about a possible
3

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 4 of 58 PageID #: 5719

24a

break in. Mona Shelton, the owner of the company, had been beaten and
shot once in the head. Donna Cary, a customer, had been shot once in the
head at close range. Police received a report of a black male with a white
bag walking away from the front of Cornerstone Monument Company and
getting into a pewter or copper-colored Ford Mustang with an Oklahoma
license plate. Police broadcast this description to area law enforcement
officers, and at 11:27 a.m., Trooper Jamie Gravier of the Arkansas State
Police spotted the Mustang traveling west near the OklahomaBArkansas
border. Gravier attempted to stop the vehicle, and a high-speed chase
ensued into Broken Bow, Oklahoma.
Oklahoma police ultimately located the vehicle parked behind the Broken
Bow residence of Hazel Thomas, [Thomas=s] mother, but the driver had
already left the area. That same afternoon, police received a report that a
black male with a gun had just stolen a Broken Bow resident's Mercury
Cougar. The Oklahoma authorities spotted the vehicle, and they were able
to apprehend [Thomas].
[Thomas] waived extradition to Arkansas and was charged in Sevier County
with two counts of capital murder in the deaths of Mona Shelton and Donna
Cary. The case was transferred to Pike County where [Thomas] was
convicted of two counts of capital murder and was given a sentence of death
for each count.
....
[T]hree aggravating circumstances were presented by the State: (1) that
[Thomas] previously committed another felony, an element of which was
the use or threat of violence to another person or created a substantial risk
of death or serious physical injury to another person; (2) that in the
commission of the capital murder, [Thomas] knowingly caused the death of
Mona Shelton and Donna Cary in the same criminal episode; and (3) that
the capital murder was committed for pecuniary gain. [Thomas] provided
evidence of thirty-two separate mitigators, twenty-five of which one or more
members of the jury found to exist.
Thomas v. State, 257 S.W.3d 92, 95-96, 100 (Ark. 2007). Additional particular facts will
be referenced herein as they relate to the individual grounds for relief raised by Thomas.

4

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 5 of 58 PageID #: 5720

25a

III. Standard of Review
A.

Exhaustion

As a matter of comity, before a federal court can grant habeas relief, it must first
determine that the petitioner has exhausted all of his state court remedies. According to
Coleman v. Thompson, 501 U.S. 722, 731 (1991), Ain a federal system, the States should
have the first opportunity to address and correct alleged violations of state prisoner=s
federal rights.@ A[A] claim has not been fairly presented to the state courts unless the same
factual grounds and legal theories asserted in the prisoner=s federal habeas petition have
been properly raised in the prisoner=s state court proceedings.@ Krimmel v. Hopkins, 56
F.3d 873, 876 (8th Cir. 1995).
Finally, where it is more efficient to do so, A[a]n application for a writ of habeas
corpus may be denied on the merits, notwithstanding the failure of the applicant to
exhaust the remedies available in the courts of the State.@ 28 U.S.C. ' 2254(b)(2). See
also Russell v. State of Mo., 511 F.2d 861, 863 (8th Cir. 1975).
B.

Procedural Bar

In addition to the requirement of exhaustion, a federal habeas court must also
examine the state court=s resolution of the presented claim. AIt is well established that
federal courts will not review questions of federal law presented in a habeas petition when
the state court=s decision rests upon a state-law ground that >is independent of the federal
question and adequate to support the judgment.=@ Cone v. Bell, 556 U.S. 449, 465
(2009)(quoting Coleman). AThe doctrine applies to bar federal habeas when a state
court declined to address a prisoner=s federal claims because the prisoner had failed to
5

Case 6:14-cv-06038-TLB Document 124

meet a state procedural requirement.@

Filed 03/31/17 Page 6 of 58 PageID #: 5721

26a

Coleman, 501 U.S. at 729-30.

A “habeas

petitioner who has failed to meet the State’s procedural requirements for presenting his
federal claims has deprived the state courts of the opportunity to address those claims in
the first instance.” Id. At 732.
A claim can be lost to procedural default at any level of state court review: at trial,
on direct appeal, or in the course of state post-conviction proceedings. Kilmartin v.
Kemna, 253 F.3d 1087, 1088 (8th Cir. 2001); see also Noel v. Norris, 194 F.Supp.2d 893,
903 (E.D. Ark. 2002).
Once a claim is defaulted, the habeas court can only consider the claim if the
petitioner can show cause for the default and actual prejudice, or that the default will result
in a fundamental miscarriage of justice. Sawyer v. Whitley, 505 U.S. 333, 338-39 (1992).
A[T]he cause standard requires the petitioner to show that some objective factor external
to the defense impeded counsel=s efforts to raise the claim in state court.@ McCleskey v.
Zant, 499 U.S. 467, 493 (1991)(internal quotations and citations omitted). Examples of
cause include constitutionally ineffective assistance of counsel, an unavailable factual or
legal basis for a claim, or interference by state officials that made complying with the
exhaustion requirements impracticable. Murray v. Carrier, 477 U.S. 478, 488-89 (1986).
The petitioner must also show that the errors not only created possible prejudice, A>but
that they worked to his actual and substantial disadvantage, infecting his entire trial with
error of constitutional dimensions.=@ 477 U.S. at 494 (quoting United States v. Frady, 456
U.S. 152, 170(1982). A habeas court may bypass complex procedural issues if it is more
efficient: Ajudicial economy sometimes dictates reaching the merits if the merits are easily
6

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 7 of 58 PageID #: 5722

27a

resolvable against a petitioner while the procedural bar issues are complicated.@ Barrett
v. Acevedo, 169 F.3d 1155, 1162 (8th Cir. 1999). See also Trussell v. Bowersox, 447
F.3d 588, 590-91 (8th Cir. 2006).
C.

Merits

Finally, when the merits of a claim presented in a habeas action have been
addressed in state court proceedings, the habeas court cannot grant habeas corpus relief
upon the claim unless it determines that the state court proceedings resulted in a decision
(1) Athat was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States@ or (2) Athat was
based on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.@ 28 U.S.C. ' 2254(d).
To find that a decision is contrary to clearly established federal law, a habeas court
must find that the state court decision directly contradicts Supreme Court precedent or if,
when faced with Amaterially indistinguishable@ facts, the state court reached a decision
that was opposite to the result reached by the Supreme Court. Kinder v. Bowersox, 272
F.3d 532, 537-38 (8th Cir. 2001). With respect to the reasonableness requirement, the
petitioner must show that the state court decision is Aobjectively unreasonable.@ Williams
v. Taylor, 529 U.S. 362, 409 (2000)(O=Connor, J., concurring in part). Although a state
court=s application of federal law might be mistaken in this Court=s independent judgment,
that does not mean that it is objectively unreasonable. Id. at 411-13. Relief is warranted
only Awhere there is no possibility fairminded jurists could disagree that the state court=s

7

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 8 of 58 PageID #: 5723

28a

decision conflicts with [the Supreme Court=s] precedents.@ Harrington v. Richter, 562
U.S. 86, 102 (2011).
IV. Claims
Before the Court is Thomas=s amended petition (Amended Petition, Doc. 9), and
the various responses and replies thereto. As the Court previously ordered, some of
Thomas=s claims required further development. 1 In this section, however, the Court will
address the claims which this Court can resolve on the pleadings.
A.

Claims for Relief Presented to the State Courts

Thomas failed to present the majority of his current claims to the state courts.
However, the claims that were effectively presented to the state courts will be addressed
in this section.
1.
at Trial. 2

Issue 1-6: Failure to Introduce the Testimony of Lt. Alex Mathis

Thomas claims he was denied effective assistance of counsel when his trial
counsel unreasonably and prejudicially failed to introduce the testimony of Lt. Alex Mathis
at trial or to at least offer his transcribed testimony from a pre-trial hearing to rebut any

1

Initially, the Court ordered that the record be expanded with regard to certain claims so that it might
properly consider whether there was an excuse to certain procedural defaults. (Order, Doc. 35). To be
clear, the expanded record was not considered for any other purpose.
As set forth in this Court=s Order dated September 16, 2015 (Order, Doc. 40), the Court then held an
evidentiary hearing concerning the procedural default of certain claims concerning ineffective assistance of
counsel arising from the alleged failure to present compelling mental health and mitigation evidence and
certain claims that trial counsel was ineffective for failing to investigate and present claims of juror
misconduct. Appendix A to this Order sets forth the claims taken up at the evidentiary hearing.

2

Among other places, Issue 1-6 is discussed in the following pleadings: Document 9, p. 53; Document
24, p. 30; and, Document 29, p. 50.

8

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 9 of 58 PageID #: 5724

29a

possible inference that Mickey Thomas attempted to rape or sexually assault the
decedents because a condom and twine were found on his person upon his arrest.
Thomas claims that the testimony of Lt. Alex Mathis could have rebutted any
inference that Thomas sexually assaulted or attempted to sexually assault the decedents.
Although the State argues that this Court must deny relief under ' 2254(d) because the
Arkansas Supreme Court reasonably determined that trial counsels= failure to present the
testimony of Lt. Mathis was a matter of trial strategy, Thomas asserts that ' 2254(d) does
not bar relief because the Arkansas Supreme Court=s decision was based on an
unreasonable determination of the facts. Specifically, Thomas argues that according to
the trial record, trial counsel discussed specific topics he originally intended to question
Lt. Mathis about. Thomas argues this proves that trial counsel=s failure to call Mathis to
testify was not a strategic decision.
As set forth above, when the merits of a claim presented in a habeas action have
been addressed in state court proceedings, the habeas court cannot grant relief upon the
claim unless it determines that the state court proceedings resulted in a decision (1) Athat
was contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United States@ or (2) Athat was based on
an unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.@ 28 U.S.C. ' 2254(d).
On appeal from the state post-conviction proceedings, the Arkansas Supreme
Court accurately set forth the standard of review for claims of ineffective assistance of

9

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 10 of 58 PageID #: 5725

30a

counsel under Strickland v. Washington, 466 U.S. 668 (1984) and, with respect to the
claim, stated:
[i]n reviewing an assertion of ineffective assistance of counsel concerning
the failure to call a certain witness, [the] court=s objective is to determine
whether the failure resulted in actual prejudice that denied the petitioner a
fair trial. The decision whether to call or not to call a particular witness is
largely a matter of professional judgment. The fact that there was a
witness or witnesses who could have offered beneficial testimony is not, in
itself, proof of counsel=s ineffectiveness.
Accordingly, in order to
demonstrate prejudice, Thomas must establish that there was a reasonable
probability that, had counsel presented the witness, the outcome of the trial
would have been different.
Thomas v. State, 431 S.W.3d 923, 929-30 (Ark. 2014)(citations omitted). The Arkansas
court found that the record of Thomas=s Rule 37.5 hearing demonstrates that his counsel
made a strategic decision not to call Mathis because he did not want to draw attention to
the evidence. The Arkansas court also found that Thomas failed to demonstrate that he
was prejudiced by his counsel=s decision not to call Mathis to testify.
Thomas argues that Thomas=s counsel=s requests for Mathis=s testimony in a pretrial conference, including counsel=s asserted reasons for Mathis=s testimony, and
counsel=s motion seeking to have Mathis=s prior testimony introduced during trial, are
more contemporaneous proof of trial strategy and A[b]y ignoring [such evidence], the
Arkansas Supreme Court unreasonably determined the facts.@ (Doc. 29, p. 52).
However, this Court does not find the Arkansas Supreme Court=s decision Awas
based on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.@

While the facts pointed to by Thomas are additional

10

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 11 of 58 PageID #: 5726

31a

evidence of trial strategy, trial counsel specifically testified to their trial strategy in the Rule
37.5 hearing.
Finally, even if the Court were to find the Constitutional error in this regard, relief
would not be warranted. See Fry v. Pliler, 551 U.S. 112, 121-122 (2007) (In § 2254
proceedings, a court must assess the prejudicial impact of any constitutional error).
Under Brecht v. Abrahamson, 507 U.S. 619 (1993), “the standard for determining whether
habeas relief must be granted is whether the . . . error ‘had substantial and injurious effect
or influence in determining the jury’s verdict.”’ Brecht, 507 U.S. at 623 (quoting Kotteakos
v. United States, 328 U.S. 750, 776 (1946)).

According to the Eighth Circuit in

Christenson v. Ault, “[a] ‘substantial and injurious effect’ occurs when a court finds itself
in ‘grave doubt’ about the effect of the error on the jury’s verdict.” 598 F.3d 990, 994
(2010). Further, “‘grave doubt’ exists when the issue of harmlessness is ‘so evenly
balanced that [the court] feels [itself] in virtual equipoise as to the harmlessness of the
error.’” Id. (citing Chang v. Minnesota, 521 F.3d 828, 832 (8th Cir. 2008)). A review of
the testimony leads the Court to determine that the failure to include the potential
testimony of Lt. Alex Mathis did not negatively affect the jury’s verdict.
The Court finds that Issue 1-6 of Thomas=s petition should be dismissed.

11

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 12 of 58 PageID #: 5727

32a

2.
Point 2-1-1: The Trial Court Violated Mr. Thomas’s Fair CrossSection Rights by Transferring Mr. Thomas’s Trial to a County With a
Substantially Smaller Population of Persons of Mr. Thomas’s Race.3
In Point 2-1-1, Thomas contends that the trial court erred when it transferred Mr.
Thomas’s trial to a county with a substantially smaller population of persons of Mr.
Thomas’s race. At trial, Thomas’s counsel moved for a change in venue. The trial court
granted Thomas’s motion, transferring the case from Sevier County to Pike County.
Although trial counsel noted the make-up of the counties during the change of venue
arguments, trial counsel failed to raise any of the constitutional arguments currently being
raised on objection to the trial court. The Arkansas Supreme Court, therefore, found that
Thomas failed to make a sufficient record that would preserve such an argument on
appeal that the trial court erred in transferring the case to Pike County; and, further found
that review on appeal was precluded under the contemporaneous objection rule.
Thomas v. State, 257 S.W.3d 92, 96-97 (Ark. 2007). See also Wicks v. State, 606
S.W.2d 366 (Ark. 1980).
Accordingly, the Court finds that Point 2-1-1 is procedurally defaulted.

Any

argument Thomas may have to excuse the procedural default of Point 2-1-1 will be
discussed below.

3

Among other places, Point 2-1-1 is discussed in the following pleadings: Document 9, p. 59; and,
Document 24, p. 34.

12

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 13 of 58 PageID #: 5728

33a

3.
Point 2-1-2: The Trial Court Erred by Refusing to Supplement
the Jury Pool. 4
In Point 2-1-2, Thomas asserts that the trial court erred by refusing to supplement
the jury pool in violation of his Sixth and Fourteenth Amendment Constitutional rights.
Specifically Thomas states that the trial judge used a Anarrow jury pool drawn from voter
registration rolls . . . [and] refused to use a statutorily authorized expanded jury pool that
included other citizens drawn from the list of licensed drivers and persons issued a state
identification card.@

As a result, Thomas argues, AAfrican Americans and the poor were

woefully underrepresented in Mr. Thomas=s jury venire.@
The Respondent argues that this claim was adjudicated on the merits by the
Arkansas Supreme Court with the court finding that Thomas failed to make the prima
facie showing required by Duren v. Missouri, 439 U.S. 357 (1979) and rejecting his claim
that the trial court erred by refusing to supplement the jury pool. See Thomas, 257
S.W.3d at 97-99. Further, the Respondent argues that Thomas has not demonstrated
the Arkansas Supreme Court=s decision to be contrary to, or an unreasonable application
of clearly established federal law, or based on an unreasonable determination of the facts
in light of the evidence presented in the trial court.
As set forth by the Arkansas Supreme Court, Arkansas Code Annotated ' 16-32301 allowed for jury pool expansion:
(a) The pool of names from which prospective jurors are chosen may be
expanded from the list of registered voters to include the list of licensed
drivers and persons issued an identification card under ' 27-16-805.

4

Among other places, Point 2-1-2 is discussed in the following pleadings: Document 9, p. 62; Document
24, p. 39; and, Document 29, p. 54.

13

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 14 of 58 PageID #: 5729

34a

Further, Arkansas Code ' 16-32-303 allowed the administrative circuit judge for
each county to determine whether to use the list of registered voters or the enhanced list:
(a) The administrative circuit judge for each county shall determine that
either the list of registered voters or the enhanced list, but not both, shall be
utilized in the selection of all prospective jurors for all circuit court divisions
within the county, based upon a consideration of whether the use of
registered voters creates a sufficient pool for the selection of jurors to offer
an adequate cross section of the community.
The Arkansas Supreme Court noted that pursuant to a memo dated September
14, 2004 Circuit Judges Charles Yeargan and Ted Capeheart Astated that they did not
feel it was in the best interest of the Ninth West Judicial District to change to motor vehicle
registration.@ Thomas, 257 S.W.3d at 98.
The Arkansas Supreme Court correctly set forth the standard with respect to a
claim that an individual=s right to a jury chosen from a fair cross section of his community
has been violated:
[i]n order to establish a prima facie case of deliberate or systemic exclusion,
a defendant must prove that: (1) the group alleged to be excluded is a
>distinctive= group in the community; (2) the representation of this group in
venires from which the juries are selected is not fair and reasonable in
relation to the number of such persons in the community; and (3) this
underrepresentation is due to systemic exclusion of the group in the juryselection process.
Thomas v. State, 257 S.W.3d 92, 98 (Ark. 2007)(citing Lee v. State, 942 S.W.2d
231 (Ark. 1997); Duren v. Missouri, 439 U.S. 357 (1979)). The state court went on to
find that Thomas had failed to prove Asystemic exclusion of black people from the juryselection process.@
Although Thomas argues that the state court held that one can never establish a
fair cross-section violation when the jury venire is randomly selected, the Arkansas

14

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 15 of 58 PageID #: 5730

35a

Supreme Court instead held Awhen the jury venire is drawn by random selection, the mere
showing that it is not representative of the racial composition of the population will not
make a prima facie showing of racial discrimination.@ Thomas, 257 S.W.3d at 77-78.
Further, as set forth in Berghuis v. Smith, 559 U.S. 314, 329 (2010) Aneither Duren nor
any other decision of this Court specifies the method or test courts must use to measure
the representation of distinctive groups in jury pools.@ The Court finds that the Arkansas
Supreme Court=s decision on this issue is neither contrary to nor an unreasonable
application of established federal law.
The Court dismisses Point 2-1-2 of Thomas=s petition.
4.
Claim 12: The Trial Court Unfairly Denied Mr. Thomas an
Adequate Opportunity To Prepare for Trial. 5
In Claim 12, Thomas argues that the trial court=s denial of a continuance violated
his federal constitutional rights to counsel and the effective assistance thereof, to due
process, and to a fair and reliable determination of death eligibility and sentence selection,
as guaranteed by the Sixth, Eighth and Fourteenth Amendment. Thomas further argues
that the trial court unconstitutionally forced Thomas to trial despite his attorneys= repeated
objections that they had not conducted an adequate investigation or completed
preparation for his case.
The Respondent asserts that Thomas has not demonstrated the Arkansas
Supreme Court=s decision to be contrary to, or an unreasonable application of clearly
established federal law, or based on an unreasonable determination of the facts in light
of the evidence presented in the trial court. The Respondent points to the reasons the

5

Among other places, Claim 12 is discussed in the following pleadings: Document 9, p. 234; Document
24, p. 131; and, Document 29, p. 56.

15

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 16 of 58 PageID #: 5731

36a

Arkansas Supreme Court cited in finding that the denial of a continuance was not an
abuse of discretion. Thomas, 257 S.W.3d at 101(citing Dirickson v. State, 953 S.W. 2d
55 (Ark. 1997)).
As set forth by the Arkansas Supreme Court, under Arkansas law, A[a] trial court
shall grant a continuance only upon a showing of good cause and only for so long as is
necessary, taking into account not only the request or consent of the prosecuting attorney
or defense counsel, but also the public interest in prompt disposition of the case.@
Thomas, 257 S.W.3d 92, 101 (Ark. 2007)(citing Ark. R. Crim. P. 27.3 (2006)).
According to Ungar v. Sarafite, 376 U.S. 575 (1964), A[t]here are no mechanical
tests for deciding when a denial of a continuance is so arbitrary to violate due process;@
instead, A[t]he answer must be found in the circumstances present in every case,
particularly in the reasons presented to the trial judge at the time the request is denied.@
Id. at 589. Further, Aa myopic insistence upon expeditiousness in the face of a justifiable
request for delay can render the right to defend with counsel an empty formality.@

Id. at

590. The Supreme Court later emphasized in Morris v. Slappy, 461 U.S. 1 (1983), A[t]rial
judges necessarily require a great deal of latitude in scheduling trials. 461 U.S. at 11.
“Not every restriction on counsel=s time or opportunity to investigate or to consult with his
client or otherwise prepare for trial violates a defendant=s Sixth Amendment right to
counsel.@ Id.
Noting the generality of the constitutional rule with respect to a continuance
request, the Eighth Circuit in Middleton v. Roper, 498 F.3d 812, (8th Cir. 2007) noted A[i]n
applying the deferential standard of AEDPA, >[t]he more general the rule, the more leeway

16

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 17 of 58 PageID #: 5732

37a

courts have in reaching outcomes in case-by-case determinations.=@ Id. at 817 (citing
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)).
The Arkansas Supreme Court noted that the trial court denied Thomas=s requests
for a continuance because the trial had been set prior to one of counsel=s other trial
settings; because the trial court believed an unavailable witness would be at trial; and
because the court did not believe requested DNA evidence would be exculpatory.
Considering the reasons for the trial court=s denial, and Thomas=s failure to show that he
was prejudiced in any way by the denial of the continuances, the Arkansas Supreme
Court found no abuse of discretion by the trial court.
Although Thomas argues that the Arkansas Supreme Court=s finding is contrary to
or an unreasonable application to established federal law, this Court disagrees. The
Arkansas Supreme Court reviewed the totality of the circumstances surrounding the
requests for continuances and found justifiable reasons for the denial.
The Court finds that the holding was neither contrary to nor an unreasonable
application of established federal law and therefore dismisses Claim 12 of Thomas=s
petition. 6
5.
Claim 16: Improper Instructions, and the Trial Judge==s Refusal
to Give Adequate Instructions, Violated Mr. Thomas=s Constitutional Rights
at the Penalty Stage. 7
Claim 16 includes two parts concerning the jury instructions given during the
penalty stage of Thomas’s trial. Thomas claims that the trial judge gave prejudicial jury

6 For the reasons explained below, trial counsel’s lack of proper investigation and preparation for trial –
which precipitated the need for a continuance – is a separate issue.
7 Among other places, Claim 16 is discussed in the following pleadings: Document 9, p. 256; and,
Document 24, p. 143.

17

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 18 of 58 PageID #: 5733

38a

instructions, and refused to give necessary jury instructions, in violation of Thomas=s
federal constitutional rights to due process, equal protection, trial by jury, freedom from
cruel and unusual punishment, and a fair and reliable determination of guilt, deatheligibility, and sentence, guaranteed by the Sixth, Eighth, and Fourteenth Amendments.
a. Issue 16-1: Trial Court Erred by Giving Jury Instruction
Which Imposed a Non-Statutory Burden on Mr. Thomas to Prove
Mitigating Circumstances AProbably@ Existed.
Thomas argues that the Atrial court erroneously refused to eliminate the word
>probably= from the mitigating circumstances instruction in violation of Mr. Thomas=s
Fourteenth Amendment right to due process and Eighth Amendment right to freedom
from cruel and unusual punishment@ by limiting the jury=s consideration of mitigating
evidence to evidence that supported a mitigating circumstance that Aprobably@ existed.
According to the findings of the Supreme Court of Arkansas,
[a]t a pre-trial hearing, [Thomas] requested that the trial court substitute a
non-AMCI Form 2 because the AMCI 2d Form 2 places the burden on
[Thomas] to prove that mitigating circumstances >probably= exist. [Thomas]
argues (1) that the language >probably exist= in the AMCI Instruction is not
found in the statutes, but is a product of this Court=s rule-making process,
thus violating the separation of powers doctrine; (2) that the language
violates the Eighth and Fourteenth Amendment=s prohibition against cruel
and unusual punishment because the burden of proof is imposed by the
Court, rather than the legislature; and (3) that the language violates the
Eighth and Fourteenth Amendment=s ban on cruel and unusual punishment
because it prohibits jurors from considering and giving effect to mitigating
evidence that >possibly= or >maybe= exists.
Thomas v. State, 257 S.W.3d 92, 103 (Ark. 2007).
The Respondent states that the Supreme Court of Arkansas affirmed the trial
court=s denial of Thomas=s requested instructions, rejecting Thomas=s claims that the
language Aprobably exist@ in the mitigating circumstances verdict forms and that the trial

18

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 19 of 58 PageID #: 5734

39a

court=s failure to define Amitigating circumstances@ prevented the jurors from considering
all mitigating evidence in violation of his constitutional rights. See Thomas, 257 S.W.3d
at 99-100, 102-103. The Respondent argues that Thomas has not demonstrated that
the Supreme Court of Arkansas=s adjudication of his mitigation-instruction claims resulted
in a decision that was contrary to, or involved an unreasonable application of the relevant
federal law principles, or that it was based on an unreasonable determination of the facts
in light of the evidence presented in the trial court.
The Supreme Court of Arkansas noted that Acriminal jury instructions do not trump
the plain language of . . . criminal statutes.@ 257 S.W.3d at 103 (citing Jones v. State,
182 S.W.3d 485 (Ark. 2004)). The court further noted, however, that previous holdings
“have created a presumption that the model instruction is a correct statement of the law .
. . [and] any party who wishes to challenge the accuracy of a model instruction . . . must
rebut the presumption of correctness.”

Id.

The court concluded that the word

Aprobably@ in the model jury instruction did not impose a non-statutory burden on Thomas,
quoting a prior opinion of the court:
We do not believe that the addition of the word Aprobably@ in the model
instruction that the jury received regarding mitigating factors in any way
affected which party had the burden of proof. Nor do we believe that this
language suggested to the jury that Thessing had the burden of proof.
Nothing in the model instruction given to the jury states that Thessing was
required to prove that the mitigating factors probably existed. It simply
states that A[a] mitigating circumstance is shown if you believe from the
evidence that it probably existed.@ We agree with the State that the
instruction is worded differently from the statute and that this may be an
issue that this court=s committee on model jury instructions should address.
Nevertheless, we also agree with the State that any discrepancy in wording
actually benefitted Thessing as proof of a mitigator under the standard of
Aprobably existed@ is less severe than actual existence.
Thessing v. State, 230 S.W.3d 526, 543 (Ark. 2006).
19

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 20 of 58 PageID #: 5735

40a

According to Boyde v. California, 494 U.S. 370 (1990), the Supreme Court found
the proper inquiry when reviewing an ambiguous jury instruction to be Awhether there is
a reasonable likelihood that the jury has applied the challenged instruction in a way that
prevents the consideration of constitutionally relevant evidence.@ 494 U.S. at 380. This
Court does not find that there is a reasonable likelihood that the jury applied the
challenged instruction in a way that prevents the consideration of constitutionally relevant
evidence. This Court further finds the decision of the Arkansas Supreme Court to be
neither contrary to, nor an unreasonable application of established federal law.
b. Issue 16-2: The Trial Court Erroneously Refused to Provide
the Jury with a Definition of AMitigating Circumstances.@
Thomas also argues that the trial court violated his right to due process, to present
a defense, to freedom from cruel and unusual punishment, and to a fair and reliable
determination of sentence selection, guaranteed by the Eighth and Fourteenth
Amendments, when the court arbitrarily refused to provide the jury with a definition of the
term Amitigating circumstances.@
The Arkansas Supreme Court addressed this issue. According to the Arkansas
Supreme Court decision, Thomas asked the court Ato declare Ark. Code Ann. '' 5-4-6035-4-605 (Repl. 1997) constitutionally defective due to [Thomas=s] assertion that it fails to
guide the jury by failing to define >mitigation= and does not clearly and objectively establish
standards with regard to the weight and effect to be given mitigation evidence.@ Thomas,
257 S.W.3d at 99. The Arkansas Supreme Court stated A[w]e have repeatedly upheld
the Arkansas capital-sentencing scheme. The capital-murder sentencing statutes are

20

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 21 of 58 PageID #: 5736

41a

not unconstitutionally vague simply because there is no definition of >mitigating
circumstance.=@ Thomas v. State, 257 S.W.3d 92, 99 (Ark. 2007)(citing Henderson v.
State, 652 S.W.2d 26, cert. denied, 464 U.S. 1012 (1983)). As set forth above, a capital
sentencing proceeding is not inconsistent with the Eighth Amendment if there is only a
possibility that the jury was inhibited from considering relevant mitigating evidence.
Boyde v. California, 494 U.S. 370, 380 (1990). See also Ayers v. Belmontes, 549 U.S.
7, 14 (2006). Here, out of thirty-two (32) mitigating circumstances presented to the jury,
at least one member of the jury found that twenty-five (25) mitigating circumstances
probably existed. Thomas has not proven that there was a reasonable likelihood that
the absence of a definition of Amitigating circumstance@ prevented the consideration of
constitutionally relevant evidence.
In this respect, the Court again finds the decision of the Arkansas Supreme Court
to be neither contrary to, nor an unreasonable application of established federal law. To
the extent that Thomas’s arguments contained in Claim 16 were addressed by the
Arkansas Supreme Court, the claim is dismissed. Any other arguments contained in
Claim 16 are either unexhausted or procedurally defaulted and will be discussed below.
6. Claim 17: The State Used Improper and Unconstitutional VictimImpact Testimony. 8
In Claim 17, Thomas argues that his death sentences should be vacated because
they were secured through the use of improper and unconstitutional victim impact
testimony, in violation of his rights to fundamental fairness and to freedom from arbitrary
or capricious infliction of the death penalty, guaranteed by the Due Process Clause of the

8

Among other places, Claim 17 is discussed in the following pleadings: Document 9, p. 260; and,
Document 24, p. 149.

21

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 22 of 58 PageID #: 5737

42a

Fourteenth Amendment and by the Cruel and Unusual Punishment Clause of the Eighth
Amendment to the federal Constitution. The Respondent asserts that the Arkansas
Supreme Court addressed Thomas’s claim – at least to the extent he argues a violation
of his Eighth Amendment rights; and, that the state court’s rejection of the claim is neither
contrary to, nor an unreasonable application of, clearly established law, pointing
specifically to Payne v. Tennessee, 501 U.S. 808 (1991).

The Respondent further

asserts that the due process portion of Thomas’s claim regarding the specific victimimpact testimony offered during trial does not merit relief because it is procedurally
defaulted.
On appeal to the Arkansas Supreme Court, Thomas argued that the trial court
erred by failing to grant his motions to prohibit victim-impact evidence; that victim-impact
evidence is only allowed by Arkansas law when relevant to the aggravators or mitigators
advanced at trial; and that instead of helping to prove the aggravators or disprove any of
the mitigators, the victim-impact evidence introduced “only encouraged the jury to
respond emotionally and to arbitrarily base its decision on irrelevant matters.” Thomas
v. State, 257 S.W.3d 92, 100 (Ark. 2007).
Under Arkansas Code Annotated § 5-4-603(a), for the state to sentence a
defendant to death it must demonstrate (1) that aggravating circumstances exist beyond
a reasonable doubt; (2) that aggravating circumstances outweigh beyond a reasonable
doubt all mitigating circumstances found to exist; and (3) that the aggravating
circumstances justify a sentence of death beyond a reasonable doubt. Victim-impact
evidence is allowable under Ark. Code Ann. § 5-4-602(4) at the sentencing phase of a
capital case as “relevant to a jury’s determination of the appropriateness of the death
22

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 23 of 58 PageID #: 5738

43a

penalty.” Fudge v. State, 20 S.W.3d 315, 321 (Ark. 2000). The court cited Arkansas
Supreme Court precedent rejecting the argument that “victim-impact evidence acts as an
aggravating circumstance or that it violates the statutory weighing process set out in
capital murder cases.” Thomas, 257 S.W.3d at 100. (citing Anderson v. State, 242
S.W.3d 229 (2006); Johnson v. State, 157 S.W.3d 151 (2004); Noel v. State, 960 S.W.2d
439 (1998)). Instead, the court found victim-impact evidence relevant as it “informs the
jury of the toll the murder has taken on the victim’s family.” Thomas, 257 S.W.3d at 100.
The Arkansas court further cited United States Supreme Court precedent which held that
“[a] State may legitimately conclude that evidence about the victim and about the impact
of the murder on the victim’s family is relevant to the jury’s decision as to whether or not
the death penalty should be imposed.” Payne v. Tennessee, 501 U.S. 808, 827 (1991).
Accordingly, the Arkansas court’s decision was neither contrary to, nor an unreasonable
application of, clearly established law. To this extent, Thomas’s Claim 17 is dismissed.
To the extent, however, that Thomas argues that the specific victim-impact
evidence admitted during the sentencing was a violation of his due process rights, the
Court finds the claim unexhausted. Thomas appealed, to the state’s highest court, the
trial court’s denial of his pre-trial motions concerning victim-impact evidence and the
relevance of the evidence admitted at trial.

The availability of any relief on the

unexhausted portion of this claim will be discussed below.
B. Claims for Relief Not Presented to the State Courts
As set forth above, before seeking federal habeas review, a state prisoner must
first Aexhaus[t] the remedies available in the courts of the State.@

28 U.S.C. '

2254(b)(1)(A). To meet the exhaustion requirement, a prisoner must present his claims
23

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 24 of 58 PageID #: 5739

44a

through Aone complete round of the State=s established appellate review process.@
O=Sullivan v. Boerckel, 526 U.S. 838, 845 (1999). Accordingly, Ato fully exhaust claims
raised in a state post-conviction petition, a prisoner must appeal the denial of that petition
to the state=s highest court.@ Williams v. Hobbs, 2014 WL 7152687 (December 15,
2014)(citing Armstrong v. Iowa, 418 F.3d 924, 925-26 (8th Cir. 2005)). If, however, “the
state courts decline to review a claim because the prisoner has failed to comply with
‘independent and adequate’ state procedural rules for presenting it, the claim is
procedurally defaulted.” Id. (citing Coleman, 501 U.S. at 729-30, 750).
The Respondent claims that each and every claim not effectively presented to the
state courts is barred by the doctrine of procedural default. Thomas, however, argues
that, largely, the claims which were not ruled on by the Arkansas Supreme Court are
unexhausted and, that this case should be stayed and held in abeyance pending further
litigation of those claims in the state courts.

Alternatively, Thomas argues that the

procedural default of certain claims should be excused.
1. Unexhausted Claims
According to Eighth Circuit precedent,
A habeas petitioner is required to pursue all available avenues of relief in
the state courts before the federal courts will consider a claim. If a
petitioner fails to exhaust state remedies and the court to which he should
have presented his claim would now find it procedurally barred, there is a
procedural default. If the federal court is unsure whether a claim would be
rejected by the state courts, the habeas proceeding should be dismissed
without prejudice or stayed while the claim is fairly presented to them. If,
however, it is clear that the state courts would find the claim to be
procedurally barred and that a return to the state courts would be futile, the
federal court may consider an unexhausted claim. A petitioner could then
try to overcome any procedural default by showing cause or actual
prejudice.
Sloan v. Delo, 54 F.3d 1371, 1381-82 (8th Cir. 1995)(citations omitted).
24

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 25 of 58 PageID #: 5740

45a

The courts have recognized that dismissing unexhausted claims may result in the
expiration of the statute of limitations for federal habeas actions provided in 28 U.S.C. §
2244(d)(1). The Supreme Court has therefore instructed that a district court may stay a
federal habeas petition and hold it in abeyance while the petitioner returns to state court
to exhaust his previously unexhausted claims. Rhines v. Weber, 544 U.S. 269, 275
(2005). However,
stay and abeyance should be available only in limited circumstances.
Because granting a stay effectively excuses a petitioner’s failure to present
his claims first to the state courts, stay and abeyance is only appropriate
when the district court determines there was good cause for the petitioner’s
failure to exhaust his claims first in state court. Moreover, even if a
petitioner had good cause for that failure, the district court would abuse its
discretion if it were to grant him a stay when his unexhausted claims are
plainly meritless.
Rhines, 544 U.S. at 277. Finally, “if a petitioner engages in abusive litigation tactics or
intentional delay, the district court should not grant him a stay at all.” Id. at 278.
As previously stated, Thomas argues that the majority of his claims are
unexhausted, and that, because certain state court procedures are available, this matter
should be stayed and held in abeyance pending exhaustion in state court. Specifically,
Thomas asserts that relief remains available to him in the state courts by means of a
motion to recall the mandate; and, with respect to Claim 15, a petition for writ of coram
nobis. As explained below, the scope of each of these remedies is limited.
a.

Motion to Recall the Mandate

Thomas argues that a motion to recall the mandate is an available remedy in the
Arkansas courts because of the state’s failure to provide Thomas with effective postconviction counsel.

25

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 26 of 58 PageID #: 5741

46a

According to established caselaw, the Arkansas Supreme Court will “recall a
mandate and reopen a case only in extraordinary circumstances.” Ward v. State, 455
S.W.3d 830, 832 (Ark. 2015). To establish the extraordinary circumstances that would
warrant the recall of a mandate the following factors must be present: “(1) the presence
of a defect in the appellate process, (2) a dismissal of proceedings in federal courts
because of unexhausted state-court claims, and (3) the appeal is a death case that
requires heightened scrutiny.” Id. (citing Roberts v. State, 426 S.W.3d 372 (Ark. 2013)).
Thomas argues that the ineffective assistance of his post-conviction counsel
amounted to a defect in the appellate process; and, that, therefore, a motion to recall the
mandate as an available remedy is not clearly futile. While it is true that the Arkansas
Supreme Court has recalled a mandate and reopened a case due to extreme ineffective
assistance of counsel, the Arkansas Supreme Court has recently held “[w]e do not
entertain a claim for recalling the mandate based solely on allegations of ineffective
assistance of postconviction counsel.” Ward v. State, 455 S.W.3d 830, 835 (Ark. 2015).
The allegations of ineffective assistance here, while potentially significant and prejudicial,
are typical – lack of preparation, mismanagement, and inattention to detail and deadlines.
The claims are different from those upon which the Arkansas Supreme Court has granted
relief through recall. 9 In sum, the Arkansas standard is clear -- “recalling the mandate is
an extremely narrow remedy reserved for unique situations; to enlarge it to allow typical
claims of ineffective assistance of counsel would alter the nature of the relief entirely.”

9

In Lee v. State, 238 S.W.3d 52 (Ark. 2006), the Arkansas Supreme Court recalled the mandate where
post-conviction counsel was intoxicated and impaired during the course of the proceedings. Here, as in
Ward, the allegations are that Thomas’s counsel “was merely ineffective, and not impaired or intoxicated .
. . [accordingly] he has not presented legal grounds to recall the mandate.” Ward v. State, 455 S.W.3d
830, 835-36 (Ark. 2015).

26

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 27 of 58 PageID #: 5742

47a

Ward v. State, 455 S.W.3d 830, 835 (Ark. 2015). The Court, therefore, finds a stay for
the purpose of the pursuit of a recall of the mandate to be clearly futile.
The Court also notes that, although under a slightly different procedural posture,
the Eighth Circuit has found that the procedure “appears to remain extraordinary rather
than routine” and “is not a proper vehicle for exhausting state remedies in Arkansas.”
Wooten v. Norris, 578 F.3d 767, 784, 786 (8th Cir. 2009). See also Dansby v. Hobbs,
766 F.3d 809, 829 (8th Cir. 2014)(reaffirming holding of Wooten that “[a] motion to recall
the mandate in Arkansas is not part of Arkansas’s standard review process.”).
b. Writ of Error Coram Nobis, Claim 15
Thomas also claims that a writ of coram nobis is an available remedy in state court
with respect to Claim 15 of his petition which asserts that he was incompetent to stand
trial. Under Arkansas law, “[a] writ of error coram nobis is an extraordinarily rare remedy,
more known for its denial than its approval.” Newman v. State, 354 S.W.3d 61, 65 (Ark.
2009). The writ has been allowed to address certain errors: “insanity at the time of trial,
a coerced guilty plea, material evidence withheld by the prosecutor, or a third-party
confession to the crime during the time between conviction and appeal.” Id. Further,
the writ will only be granted “when it appears the proposed attack on the judgment is
meritorious. In making such a determination, we look to the reasonableness of the
allegations of the petition and to the existence of the probability of the truth thereof.” Id.
“The burden is on the petitioner to show that the writ is warranted, and a bare assertion
with no factual support does not justify reinvesting jurisdiction in the circuit court to
consider a petition for writ of error coram nobis.” Pitt v. State, 2014 Ark. 132 (March 20,
2014)(not reported in S.W.3d).
27

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 28 of 58 PageID #: 5743

48a

Further, “[a]lthough there is no specific time limit for seeking a writ of error coram
nobis, due diligence is required in making an application for relief. In the absence of a
valid excuse for delay, the petition will be denied.” Wright v. State, 2014 Ark. 25 (Jan.
23, 2014)(not reported in S.W.3d)(citations omitted). The Arkansas Supreme Court has
held that “[d]ue diligence requires that (1) the defendant be unaware of the fact at the time
of the trial; (2) the defendant could not have, in the exercise of due diligence, presented
the fact at trial; and (3) the defendant, after discovering the fact, did not delay bringing the
petition.” Anderson v. State, 423 S.W.3d 20, 26 (Ark. 2012). Finally, the Arkansas
courts “have repeatedly held that allegations made in support of error coram nobis that
are premised on ineffective-assistance-of-counsel claims are not cognizable in error
coram nobis proceedings.” Nelson v. State, 431 S.W.3d 852, 855 (Ark. 2014).
Here, as set forth above, Thomas claims that he was incompetent to stand trial.
Specifically, in claim 15 of his petition, Thomas states that he “was suffering from a
devastating complex of mental disorders and disabilities that undermined his ability to
consult with his lawyers with a reasonable degree of rational understanding and
prevented him from gaining a rational and factual understanding of the proceedings
against him.” (Amended Petition, Doc. 9, Claim 15, p. 244) As set forth by the petition,
soon after his arrest, Thomas was ordered to undergo a mental health evaluation to
determine whether he was competent to proceed and whether he appreciated the
criminality of his conduct at the time of the offense. He was examined by Dr. Michael
McAllister and was found competent to stand trial. Thomas asserts that Dr. McAllister’s
examination “was woefully inadequate in multiple respects.”

Thomas specifically

argues: that Dr. McAllister’s examination was unreasonably short, and did not include the
28

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 29 of 58 PageID #: 5744

49a

assistance of a social worker or medical doctor; that Dr. McAllister did not gather past
medical, school, prison and mental health records; that Dr. McAllister’s testing was
inadequate and deficient; and that Dr. McAllister ignored “clear signs” that Thomas was
suffering from a mental disease or defect that affected his ability to understand the
proceedings against him.
Incorporated into Thomas’s Claim 15 are the arguments contained in Issue 10-1
of the petition that he received ineffective assistance of counsel during the mitigation
phase of trial. The Court has allowed for the expansion of the record with regard to Issue
10-1. (Order, Doc. 35). Included in that expansion is the expert report of Dr. Logan, in
which he expresses his opinion that Mr. Thomas was not competent to stand trial at the
time he was tried in 2005. (Doc. 28-35, Expert Report of Dr. Logan). The Court also
received evidence with respect to Thomas’s competency during the hearing held the
week of January 30, 2017. Such evidence included the reports and testimony of Dr.
Lisak and Dr. Gur, as well as the testimony of Thomas’s trial counsel concerning his
behavior during their representation of him. Based upon Thomas’s petition and this
evidence, the Court concludes that Claim 15 is meritless. The Court simply does not
believe the weight of the evidence supports that Thomas was incompetent to stand trial
under the standard set forth in Dusky v. United States, 362 U.S. 402 (1960). 10
In addition, the Court notes that Thomas’s lack of diligence in pursuit of this issue
via writ of coram nobis in state court also weighs against Thomas’s likelihood of success

10

Additionally, as noted in § IV(C)(2)(b) below, during the March 8, 2017 post-hearing arguments,
Petitioner’s counsel conceded that the proof presented at the evidentiary hearing did not support Issue 114, in which Thomas argues that his trial counsel was ineffective in that they failed to argue that he was
incompetent to stand trial. The Court further notes below that there was significant proof presented
during the evidentiary hearing that Thomas was cooperative and helpful to his trial counsel and that he
understood the proceedings against him.

29

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 30 of 58 PageID #: 5745

50a

in state court. Clearly, Thomas’s current counsel were formulating this argument prior
to the filing of Thomas’s original petition in March of 2014. For all of these reasons, the
Court finds that a stay for the purpose of the pursuit of a writ of error coram nobis would
be clearly futile.
2. Procedurally Defaulted Claims
As set forth above, the Respondent claims that each and every claim not effectively
presented to the state courts is barred by the doctrine of procedural default. Thomas,
however, argues that certain exceptions apply to the State=s alleged procedural bar.
This Court may only consider the merits of the procedurally defaulted claims if
Thomas can show (1) cause for the default and actual prejudice, or (2) that the default
will result in a fundamental miscarriage of justice. Sawyer v. Whitley, 505 U.S. 333, 33839 (1992); Coleman v. Thompson, 501 U.S. 722, 749-50 (1991). The procedural default
analysis is frequently difficult and costly; where it is more efficient, this Court may resolve
Thomas=s claims on the merits rather than tackling the complexity of a procedural-default
determination. See McKinnon v. Lockhart, 921 F.2d 830, 833 n. 7 (8th Cir. 1990). See
also John C. Jeffries, Jr. & William J. Stuntz, Ineffective Assistance and Procedural
Default in Federal Habeas Corpus, 57 U. Chi. L. Rev. 679, 690 (1990).
a.

Trevino Cause and Prejudice

Thomas asserts that the procedural default of certain claims can be excused under
Trevino v. Thaler, 133 S.Ct. 1911 (2013) and Martinez v. Ryan, 132 S.Ct. 1309 (2012).
Under Trevino and Martinez, ineffectiveness of counsel in initial collateral proceedings
may establish cause to excuse the procedural default of an ineffective assistance of trial
counsel claim. Trevino v. Thaler, 133 S.Ct. 1911, 1921 (2013); Martinez v. Ryan, 132
30

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 31 of 58 PageID #: 5746

51a

S.Ct. 1309, 1315 (2012); Sasser v. Hobbs, 735 F.3d 833, 853-54 (8th Cir. 2013). Further,
an evidentiary hearing is required where the petitioner=s underlying claim is Apotentially
meritorious.@ Sasser, 735 F.3d at 851. Thomas argues that a Trevino hearing should
be held with respect to the entirety of his claims of ineffective assistance of trial and
appellate counsel, as well as all underlying claims of trial error forfeited by ineffective
assistance of counsel.
As set forth above, the Court previously found that Thomas may be able to
establish actual prejudice on his post-conviction ineffectiveness claims arising from the
alleged failure of trial counsel to present compelling mental health and mitigation
evidence. (Order, Doc. 40). The Court also found that Thomas=s claims arising from
the alleged failure of trial counsel in the investigation and presentation of claims of juror
misconduct were potentially meritorious and warranted a hearing under Trevino. The
Court, therefore, held an evidentiary hearing on the following claims concerning mental
health and mitigation evidence, and juror misconduct:
*

Point 1-5-1, Failure to Support Theory of Defense with Readily Available

Evidence, including the bases for this claim incorporated through Issue 10-1;
* Issue 1-13, Ineffective Assistance of Counsel with Respect to Suppression
Claim, including the bases for this claim set forth under Claim 14;
* Issue 1-14, Failure to Support Claim of Incompetency to Stand Trial with Readily
Available Evidence, including the bases for this claim incorporated through Issue 10-1
and Claim 15; and,
* Issue 10-1, Ineffective Presentation of the Case in Mitigation, including the
bases for this claim presented in each of the Points under Issue 10-1.
31

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 32 of 58 PageID #: 5747

52a

* Issue 1-11, Failure to Raise Claims of Juror Misconduct, including all bases for
this claim incorporated through Claim 11;
* Point 10-2-2, Trial Counsel Failed to Investigate for, Discover, and Present
Claims of Juror Misconduct, including all bases for this claim incorporated through Claim
11; and,
* Issue 13-2, Failure to Raise Claims of Jury Misconduct by trial counsel, including
all bases for this claim incorporated through Claim 11.
The Court’s findings with respect to these claims are discussed in section IV(C)
below.
i.
Remaining Claims of Ineffective Assistance of Trial
Counsel
In order for Martinez and Trevino to apply to the remaining claims of ineffective
assistance of trial counsel (Claim 1, except 1-5-1, 1-6, 1-11, 1-13, 1-14; Claim 10, except
10-1, 10-2-2; and Claim 13, except 13-2), Thomas must establish a showing of prejudice
as defined by Strickland B Aa reasonable probability that, but for counsel=s unprofessional
errors, the result of the proceeding would have been different.@ Strickland, 466 U.S. 668,
694 (1984). An evidentiary hearing is required where the petitioner=s underlying claim is
Apotentially meritorious.@ Sasser, 735 F.3d at 851. Having reviewed the claims, the
Court finds that none of these claims meet the “potentially meritorious” standard.
ii. Claims of Ineffective Assistance of Appellate Counsel
Thomas also argues that he should be granted a Trevino hearing on his claim of
ineffective assistance of appellate counsel (Claim 20), as well as all of his underlying
claims of trial error not presented in state court due to ineffective assistance of counsel

32

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 33 of 58 PageID #: 5748

53a

at the trial and/or appellate level B i.e., those parts of Claims 2, 3, 4, 5, 6, 7, 8, 9, 11, 14,
15, 17, 18, and 19 that have not been adjudicated on the merits in state court.
The issue presented with respect to the claim of ineffective assistance of appellate
counsel has been directly addressed by the Eighth Circuit Court of Appeals. The Eighth
Circuit, in Dansby v. Hobbs, refused Ato extend Martinez to claims alleging ineffective
assistance of counsel on direct appeal.@ 766 F.3d 809, 833 (8th Cir. 2014). According
to the Eighth Circuit, Martinez applies to a claim of ineffective assistance of counsel at
trial. The right to trial counsel is based on rights guaranteed by the Sixth Amendment to
the Constitution; the right to appellate counsel, instead, has its origin in the Due Process
Clause. Dansby, 766 F.3d at 833 (citing Martinez, 528 U.S. 152, 159-60 (2000) and
Evitts v. Lucey, 469 U.S. 387, 396-97 (1985)). Further, the Eighth Circuit in Dansby
pointed out that the Supreme Court was clear in Martinez that the rule of ColemanCthat
ineffective assistance of counsel during state post-conviction proceedings cannot serve
as cause to excuse procedural defaultCAgoverns in all but the limited circumstances
recognized here,@ and those circumstances involved a claim that trial counsel was
constitutionally ineffective. Martinez, 132 S.Ct. at 1320; Coleman v. Thompson, 501
U.S. 722, 752-55 (1991). Similarly, Martinez is not applicable to Thomas=s claim that he
received ineffective assistance of counsel during the initial-review collateral proceedings
(Claim 21) and a hearing under Trevino is not warranted in that respect.
Thomas=s claim concerning ineffective assistance of counsel during the initialreview collateral proceedings (Claim 21) further fails on the merits. 28 U.S.C. ' 2254(I)
provides that Athe ineffectiveness or incompetence of counsel during Federal or State
collateral post-conviction proceedings shall not be a ground for relief.@ Although
33

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 34 of 58 PageID #: 5749

54a

ineffective assistance of counsel during the initial-review collateral proceedings can,
under Martinez, provide cause for the procedural default of claims of ineffective
assistance of trial counsel, A>[c]ause,= . . . is not synonymous with a >ground for relief.= A
finding of cause and prejudice does not entitle the prisoner to habeas relief. It merely
allows a federal court to consider the merits of a claim that otherwise would have been
procedurally defaulted.@ Martinez v. Ryan, 132 S.Ct. at 1320.
Finally, except to the extent that any facts set forth in the stand alone claims form
the basis for Thomas=s claims of ineffective assistance of trial counsel, the stand alone
claims in no way merit a Trevino hearing.
b.
Cause and Prejudice Outside the Trevino Analysis /
Miscarriage of Justice
Thomas claims that he can establish cause and prejudice outside the Trevino
analysis in order to overcome procedural default with respect to certain claims.
Specifically, Thomas argues that Awhere a constitutional claim is so novel that its legal
basis is not reasonably available to counsel, a defendant has cause for his failure to raise
the claim in accordance with applicable state procedures.@ Reed v. Ross, 468 U.S. 1,
16 (1984)(emphasis added). Thomas also argues that cause can be established if the
Afactual . . . basis for a claim was not reasonably available to counsel.@ Murray v. Carrier,
477 U.S. 478, 488 (1986)(emphasis added).

34

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 35 of 58 PageID #: 5750

55a

i.
Claim 18: Mr. Thomas=s Sentences Should be
Vacated Because He Suffered From Severe Mental
Disorders and Disabilities at the Time of the Offense.11
In Claim 18, Thomas argues that his sentences should be vacated because he
suffered from severe mental disorder and disabilities at the time of the offense.
Specifically, he argues that the death sentences violate his federal constitutional rights to
equal protection and freedom from cruel and unusual punishment, as guaranteed by the
Eighth and Fourteenth Amendments, because, at the time of the offenses, he suffered
from a combination of severe mental disorders and disabilities that significantly impaired
his capacity to appreciate the nature, consequences, or wrongfulness of his conduct; to
exercise rational judgment in relation to the conduct; and/or to conform to the
requirements of the law. Thomas argues that any procedural default of this claim should
be excused because the claim is novel and because the underlying facts show that
Thomas=s death sentence is substantively illegal.
The Court finds the alleged cause and prejudice to excuse procedural default
lacking. More importantly, the Court finds Claim 18 without merit. See McKinnon v.
Lockhart, 921 F.2d 830, 833 n. 7 (8th Cir. 1990). To find the death penalty constitutionally
inapplicable to the mentally ill would be an extension of Atkins, which would constitute a
new rule of constitutional law.

Atkins v. Virginia, 536 U.S. 304, 320 (2002)(finding

individuals who are not mentally retarded Aare unprotected by the [Atkins] exemption and
will continue to face the threat of execution@). See also State v. Dunlap, 313 P.3d 1, 35-

11

Among other places, Claim 18 is discussed in the following pleadings: Document 9, p. 262; Document
24, p. 154; and, Document 29, p. 46.

35

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 36 of 58 PageID #: 5751

56a

36 (Idaho 2013)(discussing courts which have refused to extend Atkins and hold that the
Eighth Amendment categorically prohibits execution of the mentally ill).
ii.
Claim 19: The Death Penalty Violates the Eighth
Amendment. 12
In Claim 19, Thomas argues that the death penalty violates the Eighth
Amendment=s cruel and unusual punishment clause. Thomas argues that the cruel and
unusual punishment clause Adraws its meaning from the evolving standards of decency
that mark the progression of a maturing society.@ Thomas asserts that the procedural
default of this claim should be excused because it is legally novel and relies on facts that
were not in existence at the time of Thomas=s trial. The Court finds both no cause to
excuse the procedural default and no merit to the claim.
The United States Supreme Court recently reiterated the constitutionality of the
death penalty in Glossip v. Gross, 135 S.Ct. 2726, 2732-3 (2015)(A[I]t is settled that capital
punishment is constitutional,@ thus A’[i]t necessarily follows that there must be a
[constitutional] means of carrying it out.’@

(quoting Baze v. Rees, 553 U.S. 35, 47

(2008)). Thomas has not presented any new and retroactive United States Supreme
Court law to contradict Glossip and support his argument. Accordingly, Claim 19 should
be dismissed.

12

Among other places, Claim 19 is discussed in the following pleadings: Document 9, p. 264; Document
24, p. 156; and, Document 29, p. 46.

36

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 37 of 58 PageID #: 5752

57a

iii.
Claim 22: Cumulative Error Violated Mr. Thomas=s
Constitutional Rights. 13
In Claim 22, Thomas argues that his convictions and sentences were unlawfully
obtained in violation of his First, Fourth, Fifth, Sixth, Eighth, and Fourteenth Amendment
rights as a result of the multiple constitutional errors committed by the prosecutor,
Thomas=s counsel, the trial court, and the jurors. Thomas argues that the errors together
render Thomas=s trial fundamentally unfair and render the verdicts and judgments
unreliable and in violation of his Fourteenth Amendment right to due process. This claim
is both procedurally defaulted and lacks merit.
According to the Eighth Circuit:
[w]e repeatedly have recognized Aa habeas petitioner cannot build a
showing of prejudice on a series of errors, none of which would by itself
meet the prejudice test.@ Hall v. Luebbers, 296 F.3d 685, 692 (8th Cir.2002)
(citation omitted); see, e.g., United States v. Robinson, 301 F.3d 923, 925
n. 3 (8th Cir.2002) (recognizing Athe numerosity of the alleged deficiencies
does not demonstrate by itself the necessity for habeas relief,@ and noting
the Eighth Circuit's rejection of cumulative error doctrine); Wainwright v.
Lockhart, 80 F.3d 1226, 1233 (8th Cir.1996) (AErrors that are not
unconstitutional individually cannot be added together to create a
constitutional violation.@ (citation omitted)); Scott v. Jones, 915 F.2d 1188,
1191 (8th Cir.1990) (holding Acumulative error does not call for habeas
relief, as each habeas claim must stand or fall on its own@ (citation omitted)).
Middleton v. Roper, 455 F.3d 838, 851 (8th Cir. 2006). Based on this clear precedent,
the Court finds that Claim 22 should be dismissed.
C. Claims for Relief Addressed During the Evidentiary Hearing
As set forth above, this Court held an evidentiary hearing the week of January 30,
2017.

The parties were instructed that the Court would consider the procedurally

13

Among other places, Claim 22 is discussed in the following pleadings: Document 9, p. 278; and,
Document 24, p. 159.

37

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 38 of 58 PageID #: 5753

58a

defaulted claims set forth in Appendix A. Under Trevino and Martinez, Thomas’s postconviction counsel’s alleged ineffectiveness, if proved, could excuse any procedural
default Thomas may have committed by not presenting these ineffective assistance of
trial counsel claims in the first instance. Sasser v. Hobbs, 735 F.3d 833, 853 (8th Cir.
2013). Specifically, Sasser instructs that the proper questions are: “(1) did state postconviction counsel fail to raise these . . . ineffectiveness claims, and (2) do these claims
merit relief?” Id. at 853.
1. Did Post-Conviction Counsel Fail to Raise the Claims?
The Court has found the claims set forth in Appendix A procedurally defaulted.
The Court initially notes, however, that the Respondent argues that at least certain claims
set forth in Appendix A do not fall under the purview of Martinez because they were raised
in the initial state Rule 37 proceeding, despite being clearly defaulted on appeal of that
proceeding.

The Respondent, citing Sasser v. Hobbs, asserts that the Martinez

exception does not apply to evidentiary or appellate defaults. Sasser v. Hobbs, 735 F.3d
833, 853-54 (8th Cir. 2013).
The Court acknowledges that as explained by the Eighth Circuit in Arnold v.
Dormire, the Martinez exception does not “‘concern attorney errors in other kinds of
proceedings, including appeals from initial-review collateral proceedings. . . .’” Arnold v.
Dormire, 675 F.3d 1082, 1087 (8th Cir. 2012)(quoting Martinez v. Ryan, 566 U.S. 1, 16
(2012)).

The Court does not, however, find that this limitation applies to the

circumstances here.

38

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 39 of 58 PageID #: 5754

59a

Thomas’s Rule 37 Amended Petition for Post-Conviction Relief Pursuant to Rule
37.5 A.R.Cr.P. included the following claims concerning ineffective assistance of trial
counsel:
c. Trial counsel, Llewellyn J. Marczuk, was ineffective at trial due to
personal issues that impaired his judgment.
d. Trial counsel was ineffective for failing to properly investigate the
underlying allegations.
e. Trial counsel was ineffective for failing to adequately cross-examine
witnesses.
f. Trial counsel was ineffective for failing to properly investigate and
present mitigation evidence.
g. Trial counsel was ineffective for failing to properly investigate and
present mental health issues.
h. Trial counsel was ineffective for failing to inquire as to the nature of
Petitioner’s personal relationship with the victims.
Amended Petition for Post-Conviction Relief Pursuant to Rule 37.5 A.R.Cr.P., p. 4. The
state trial court denied those claims, specifically stating:
c-h. Petitioner claims his attorneys were ineffective for: being impaired,
failing to properly investigate, failing to properly cross-examine witnesses,
and failing to inquire as to the nature of petitioner’s relationship to the
victims. The court finds petitioner introduced no evidence in support
of these claims. To the contrary, the court finds that petitioner’s attorneys
did in fact adequately investigate the issues petitioner cites and adequately
cross-examine witnesses.
Order of the Circuit Court of Sevier County, Arkansas, dated February 1, 2010, p. 56(emphasis added). The Court notes that the Eighth Circuit has held:
A petitioner must present ‘both the factual and legal premises’ of his claims
to the state courts in order to preserve them for federal habeas review.
This standard applies to claims that trial counsel has been constitutionally
ineffective. A habeas petitioner who asserts only broadly in his state
petition for relief that his counsel has been ineffective has not immunized
his federal habeas claim’s specific variations from the effects of the state’s
39

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 40 of 58 PageID #: 5755

60a

procedural requirements. Nor has a petitioner who presents to the state
courts a broad claim of ineffectiveness as well as some specific
ineffectiveness claims properly presented all conceivable specific variations
for purposes of federal habeas review.
Flieger v. Delo, 16 F.3d 878, 884-85 (8th Cir. 1994)(emphasis in original)(citations
omitted). 14 The Court has thoroughly reviewed the Rule 37 petition, the transcript of the
Rule 37 hearing, and the findings of the state court in that regard. The petition sets forth
bare bones, boilerplate allegations of ineffective assistance of trial counsel. Although
the evidence presented at the hearing possibly skimmed the issues, the state court
specifically noted that no evidence was presented regarding those claims. The Court,
therefore, finds that post-conviction counsel failed to effectively raise the claims listed in
Appendix A in the initial state Rule 37 proceeding. Accordingly, the Court will proceed
with its evaluation of the claims under Martinez and Trevino.
2. Do the Claims Merit Relief?
The Court must next consider several factors to determine whether the claims
merit relief. Specifically, the following questions must be considered:
x

Did Thomas’s trial counsel meet “the constitutional minimum of competency”
with respect to the claims set forth in Appendix A?

x

If Thomas’s trial counsel was ineffective with respect to any of the claims, was
Thomas prejudiced by the deficiency during either the guilt phase or sentencing
phase of trial?

x

If Thomas was prejudiced by trial counsel’s ineffectiveness, was postconviction counsel ineffective for failing to assert the claim in the first instance?

A[A] claim has not been fairly presented to the state courts unless the same factual grounds and legal
theories asserted in the prisoner=s federal habeas petition have been properly raised in the prisoner=s
state court proceedings.@ Krimmel v. Hopkins, 56 F.3d 873, 876 (8th Cir. 1995).
14

40

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 41 of 58 PageID #: 5756

61a

The alleged ineffectiveness of counsel, both that of Thomas’s post-conviction
counsel and Thomas’s trial counsel, is viewed under the Strickland standard. Strickland
v. Washington, 466 U.S. 668 (1984). Pursuant to Strickland, the “proper standard for
attorney performance is that of reasonably effective assistance . . . . reasonableness
under prevailing professional norms.”

Id. at 687-88.

“Judicial scrutiny of counsel’s

performance must be highly deferential. . . . A fair assessment of attorney performance
requires that every effort be made to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.”

Id. at 689.

Further, “actual

ineffectiveness claims alleging a deficiency in attorney performance are subject to a
general requirement that the defendant affirmatively prove prejudice.” Id. at 693. “The
defendant must show that there is a reasonable probability that, but for the counsel’s
unprofessional errors, the result of the proceeding would have been different.

A

reasonable probability is a probability sufficient to undermine confidence in the outcome.”
Id. at 694. “When a defendant challenges a death sentence . . . the question is whether
there is a reasonable probability that, absent the errors, the sentencer . . . would have
concluded that the balance of the aggravating and mitigating circumstances did not
warrant death.” Id. at 695.
The evidentiary hearing in this case consisted of the Petitioner’s presentation of
the testimony of twenty-one (21) witnesses, Respondent’s cross-examination of those
witnesses, and presentation of one (1) witness for the Respondent. Included in the
Petitioner’s presentation were Pam Welling Smith, Carol Holloway, Lou Marczuk, and
Tammy Harris, whose testimony centered on the trial team’s representation of Mr.
41

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 42 of 58 PageID #: 5757

62a

Thomas. The testimony of Jeff Harrelson and Jason Horton was also presented, as they
represented Mr. Thomas during the post-conviction period.

Adrian Wooten, Tyron

Thomas, Calvin Marshall, Zonzurea Thomas, Samritha Sanchez, Robert Marshall,
Earnestine Thomas, Hazel Thomas, and Creola Cotton were presented – these witnesses
are either family members or friends of Mr. Thomas and largely testified concerning
Thomas’s childhood and life experiences, family background, and general behavior. The
Petitioner also presented Richard Branch, who served as a juror and testified concerning
his experience during the trial. Dr. Richard Livingston testified concerning his evaluation
of Thomas prior to trial and his testimony at trial. Medical experts Dr. Ruben Gur, Dr.
David Lisak and Dr. William Logan were presented and testified concerning the effects
Thomas’s childhood experiences and trauma had on him, the effects of drug use and
toxic chemicals on Thomas’s brain, and Thomas’s mental state, limitations, and
impairments. Finally, expert witness Sean O’Brien testified concerning the prevailing
professional norms and standard of performance required of Thomas’s trial and postconviction counsel. The Respondent presented the testimony of Melody McKnight, who
served as the jury foreman during Mr. Thomas’s trial, concerning her experience as a
juror during Thomas’s trial. Voluminous documentary evidence was also received by the
Court.
a.

Juror Misconduct

Three of the claims set for consideration at the hearing (Issue 1-11, Point 10-2-2,
and Issue 13-2) concern the failure of trial counsel to raise claims of jury misconduct.
Thomas asserts that constitutionally competent trial counsel would have raised claims of
juror misconduct during the guilt, penalty, and post-trial period of trial, and that Thomas
42

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 43 of 58 PageID #: 5758

63a

was prejudiced by trial counsel’s failure to raise those claims.

Specifically, at the

hearing, Thomas focused his claims on the argument that jurors were exposed to pre-trial
prejudicial publicity and that certain jurors, including Richard Branch, received, either prior
to or during the trial, extraneous information concerning criminal conduct in Oklahoma of
which Thomas has been accused but has not been convicted. Although the fact that
Thomas was convicted of a prior violent felony in Oklahoma was introduced into evidence
during the trial, this more recent alleged criminal conduct, which includes a murder
charge, was not presented to the jury.
As conceded by counsel for the Petitioner during the post-hearing arguments held
on March 8, 2017, the evidence presented at the hearing simply does not support this
allegation or any of the juror misconduct allegations contained in Thomas’s petition.
Richard Branch clearly testified that he knew of the prior criminal activity admitted into
evidence, but that he did not know of the alleged more recent criminal activity of Thomas
in Oklahoma during the trial. Branch pointed out that had he known about those things
during the trial phase, that information would have been contained in his notes from the
trial.

Although, as Thomas points out, Branch’s written declaration and deposition

testimony could be viewed as contradictory to Branch’s hearing testimony, Branch
explained that after reviewing his notes he was sure that he had no knowledge of the
recent alleged criminal conduct until after the trial.
Based on this testimony, the testimony of Melody McKnight, and the Petitioner’s
concession, the Court finds no facts to support Thomas’s claims that trial counsel was
ineffective in any manner with respect to alleged juror misconduct. The Court, therefore,

43

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 44 of 58 PageID #: 5759

64a

finds that Martinez and Trevino do not excuse the procedural default of Issue 1-11, Point
2-2-2 or Issue 13-2.
b.

Mental Health and Mitigation Evidence

The remaining claims arise from the alleged failure of trial counsel to present
compelling mental health and mitigation evidence during trial. Point 1-5-1, Issue 1-13,
and Issue 1-14 are claims which concern the guilt phase of Thomas’s trial. Issue 10-1
concerns the sentencing phase of trial.
Initially, the Court notes that during the March 8, 2017 post-hearing arguments,
Petitioner’s counsel conceded that the proof presented at the hearing did not support
Issue 1-13 or Issue 1-14. The Court agrees. In Issue 1-13 of his petition, Thomas
argues that his trial counsel was ineffective in that counsel failed to protect Thomas’s
constitutional rights against self-incrimination, his right to counsel, and his right of due
process when counsel failed to fully litigate and preserve Thomas’s motion to suppress
his statements to police. In Issue 1-14 of his petition, Thomas argues that his trial
counsel was ineffective, in violation of the Sixth Amendment to the Constitution, in that
they failed to argue that he was incompetent to stand trial. No evidence was presented
directly regarding the suppression of Thomas’s statements to the police; and, while
Thomas presented some evidence and argument with respect to his competency to stand
trial, there was significant proof that Thomas was cooperative and helpful to his trial
counsel and understood the proceedings against him. Because the Court finds no merit
to these claims, and considering the Petitioner’s concession with respect to the claims,
the Court finds that the procedural default of Issue 1-13 and Issue 1-14 are not excused
by Martinez and Trevino.
44

Case 6:14-cv-06038-TLB Document 124
i.

Filed 03/31/17 Page 45 of 58 PageID #: 5760

65a

Evidence Presented at the Evidentiary Hearing

The remaining two claims include Point 1-5-1 and Issue 10-1. In Point 1-5-1 of
his petition, Thomas argues that trial counsel was ineffective during the guilt phase of
trial, in violation of the Sixth Amendment, because counsel failed to effectively argue that
Thomas did not act with the requisite premeditation and deliberation for capital murder.
Thomas argues that trial counsel should have bolstered this mental state argument by
presenting effective mental health evidence, including evidence and expert testimony of
dissociation disorders from which Thomas allegedly suffered.
Issue 10-1 of Thomas’s petition asserts that trial counsel was ineffective at the
penalty phase of trial with respect to their presentation of the case in mitigation. Thomas
argues that trial counsel failed to conduct a thorough investigation with respect to
mitigation and could have presented documentary evidence and testimony from lay and
expert witnesses that could have changed the jury’s decision when weighing the
aggravating circumstances against the mitigating circumstances at sentencing.
Specifically, as included in Issue 10-1, Thomas argues that, with respect to mitigation
evidence, trial counsel:
x

failed to present readily available documentary evidence (Point 10-1-1);

x

failed to present available mitigation testimony from lay witnesses (Point 10-12);

x

failed to present testimony from a trauma expert (Point 10-1-4);

x

failed to present evidence of a psychotic disorder (Point 10-1-5);

x

failed to present evidence of major depressive and anxiety disorders (Point 101-6); and,

45

Case 6:14-cv-06038-TLB Document 124
x

Filed 03/31/17 Page 46 of 58 PageID #: 5761

66a

failed to present evidence of sexual abuse (Point 10-1-7). 15

At the hearing, Thomas presented extensive mental health and mitigation evidence
which was not effectively introduced at trial. Mickey Thomas was raised in a family that
was dysfunctional at best. Alcohol abuse, drug abuse, physical abuse, and violence
were prevalent among Thomas’s mother, father, step-father, and grandparents. Thomas
was born pre-mature, having been exposed to alcohol and drug use in utero. Thomas
learned illicit behavior early on, and reportedly began huffing gas as a toddler. This
behavior, almost certainly learned from the observation of his parents, on more than one
occasion as a 3-4 year old child caused him to become unconscious, with his mother
reporting that he had to be “brought . . . back to life”. Thomas witnessed domestic abuse
between his mother, father, and mother’s boyfriends, and between his maternal
grandparents. Thomas also personally experienced verbal and physical abuse from his
mother, father, and his mother’s boyfriends – the physical abuse including being tied up
and beaten on multiple occasions.
In addition to being riddled with drug, alcohol, verbal, and physical abuse,
Thomas’s childhood was permeated by poverty. Evidence was presented that, as a
child, Thomas, on occasion, stole food, clothing, and shoes to provide for his mother and
siblings. Running water was occasionally not present in Thomas’s childhood home;
accordingly, hygiene was poor.
Thomas’s social history contains a strong family and personal history of mental
health issues.

Introduced into evidence at the hearing were voluminous Oklahoma

15 Point 10-1-3 of Thomas’s petition asserts that Thomas’s counsel was ineffective for failing to present
evidence of epilepsy during in mitigation. This point has been withdrawn by Thomas. (Reply to
Response to First Amended Petition, Doc. 29, p. 8).

46

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 47 of 58 PageID #: 5762

67a

Department of Human Services records. The records were never introduced or even
obtained by Thomas’s trial counsel.

The DHS records show that social services in

Oklahoma supported Thomas’s family for extended periods of time, with services
including welfare assistance, food stamps, and housing subsidies. The records show
that Thomas’s mother abandoned the family for a period of months when Thomas was
very young. The records also show that Thomas was transferred to foster care on at
least two occasions – with one occasion lasting at least a year.
From the age of 18 until 27, Thomas was in prison in Oklahoma. During that time
he received mental health services. Following his release from prison, he obtained a job
and got married. However, in 2004, Thomas began having marital problems and lost his
job. Thomas asked family members for mental health help and sought mental health
services not long before the murders.
Thomas presented the testimony of Dr. Richard Livingston at the evidentiary
hearing. Dr. Livingston was retained as an expert in Thomas’s trial and testified for
Thomas during the sentencing phase of trial.

Although at trial Livingston testified

concerning the risk factors present for Thomas stemming from his exposure to toxins and
low birth weight, Livingston testified that if asked he could have performed an evaluation
for trauma or dissociation.
As stated above, Dr. Ruben Gur, Dr. David Lisak and Dr. William Logan provided
expert medical testimony for Thomas during the evidentiary hearing. Dr. Gur concluded
that Thomas suffered brain damage, both structural and functional, but did not conclude
as to the effect that brain damage had on Thomas. Dr. Lisak testified that Thomas
experienced extensive trauma during his childhood, including both physical abuse and
47

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 48 of 58 PageID #: 5763

68a

sexual abuse. Lisak also noted that Thomas was exposed to significant violence in his
home, and that, due to these traumas, he suffers from symptoms of posttraumatic stress
disorder and displays dissociative symptoms; but, Lisak stopped short of formulating a
specific diagnosis with respect to Thomas. Dr. William Logan testified as an expert in
forensic psychiatry.

Logan ultimately concluded that Thomas was suffering from

dissociation including a “depersonalization disorder with some symptoms of
depersonalization, derealization, some spotty amnesia, [and] some identity problems”.
Logan also opined that Thomas’s dissociation disorder prevented him from having
adequate cognitive control over his actions and behavior “at certain points in [the] offense”
and “prevented him from being able to premeditate or deliberate about his actions in the
cause of the death of the two victims.”
ii.

Effect on Guilt and Sentencing Phase / Prejudice

With respect to the guilt phase of trial, the Court finds that there is no reasonable
probability that the evidence presented would have made any difference on Thomas’s
guilt or innocence of capital murder. The Court simply does not believe that even if
presented, there is a reasonable probability that the jury would have found that Thomas
lacked the mental capacity to act with a premeditated and deliberate purpose. The trial
record is replete with evidence which supports the necessary mens rea for capital murder.
Further, even if the expert testimony as presented at the hearing was found to be
admissible with respect to whether Thomas exhibited a culpable mental state, 16 the Court
simply finds the science behind Thomas’s experts’ opinions speculative, far-fetched, and
unbelievable with respect to mens rea.

16

See Stewart v. State, 870 S.W.2d 752 (Ark. 1994).

48

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 49 of 58 PageID #: 5764

69a

The prejudicial effect on the sentencing phase is a much different question. As
set forth above, the picture painted in mitigation at the evidentiary hearing was
compelling. “[T]he Constitution requires that the sentencer in capital cases must be
permitted to consider any relevant mitigating factor.” Porter v. McCollum, 558 U.S. 30,
42 (2009). And, the Constitution requires that Athe sentencer in capital cases must be
permitted to consider any relevant mitigating factor.@ Eddings v. Oklahoma, 455 U.S.
104, 112 (1982).

A’[E]vidence about the defendant=s background and character is

relevant because of the belief, long held by this society, that defendants who commit
criminal acts that are attributable to a disadvantaged background . . . may be less culpable
than defendants who have no such excuse.’@ Penry v. Lynaugh, 492 U.S. 302, 319
(1989)(abrogated on other grounds)(quoting California v. Brown, 479 U.S. 538, 545
(1987)).

Considering the totality of the circumstances, the Court finds that Thomas was

prejudiced as the case in mitigation presented at the hearing supports a reasonable
probability of a life sentence when weighed against the aggravating circumstances
presented at trial.
iii.

Was Trial Counsel Ineffective?

In addition to the mitigation evidence introduced at the hearing, Thomas introduced
evidence concerning trial counsel’s performance during their representation of him.
From the evidence presented, trial counsel consisted of a team which was unquestionably
experienced, but, the Court finds, was dysfunctional and disjointed during Thomas’s
representation as related to the development and presentation of mitigation evidence.
For whatever reason, the trial team unquestionably failed to conduct a thorough
investigation with respect to mitigation. Lou Marczuk was lead counsel, and focused on
49

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 50 of 58 PageID #: 5765

70a

the guilt portion of Thomas’s trial. Tammy Harris was assigned to the case in mitigation.
Although the team included a “mitigation specialist” and a paralegal, those individuals did
not work independently, but rather at the direct direction of the attorneys.
Trial counsel initially reached out to Thomas’s family at the beginning of their
representation, securing rich information through a written questionnaire completed by
Thomas’s mother, but follow up was lacking. Important documentary evidence prompted
by that questionnaire was either not gathered in a timely manner or not gathered at all.
The evidence presented during this Court’s evidentiary hearing included extensive
Oklahoma DHS records, Oklahoma department of corrections records, medical records,
employment records and school records.

Under the required standard of care

established by Strickland, and as evidenced by the American Bar Association Guidelines
and case law, these records should have been collected and thoroughly reviewed early
in the case to determine arguments in mitigation and potential mitigation witnesses.
Wiggins v. Smith, 539 U.S. 510, 533-34 (2003); American Bar Association Guidelines
for the Appointment and Performance of Defense Counsel in Death Penalty Cases,
Guideline 10.7 (Rev. ed. 2003). This documentation would also have provided potential
mental health expert witnesses with necessary background for effective expert testimony.
Not only did trial counsel fail to obtain this information, as set forth above, trial counsel
was on notice of the existence of most of this information due to the initial questionnaire
completed by Hazel Thomas.
Few mitigation witness interviews were conducted; and, many of the mitigation
witness interviews that were conducted occurred just prior to trial. In addition, many of

50

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 51 of 58 PageID #: 5766

71a

the mitigation witness interviews were conducted ineffectively, either with multiple parties
present or over the telephone.
The fact that trial counsel was grossly unprepared is further evidenced by their own
admissions in the motions for continuance presented prior to trial.

Specifically, the

second motion for continuance, filed on September 7, 2005, just days before the start of
trial, notes the Constitutional requirements of trial counsel in a death penalty case, stating:
“Since a person’s life is at stake, counsel is required to exhaustively explore every factual
and legal aspect of the ‘defendant’s character . . . and any of the circumstances of the
offense.’ Lockett v. Ohio, 438 U.S 586, 604 (1978).” Trial counsel further cited Rompilla
v. Beard, and noted that counsel needed “time to fully gather, properly analyze, and
prepare the mitigation evidence.”

Rompilla v. Beard, 545 U.S. 374 (2005)(finding

counsel is bound to make reasonable efforts to fully investigate the case in mitigation
through multiple avenues). Specifically, the second motion for continuance states:
It is vitally necessary that Defendant be allowed additional time to prepare
for trial. Witnesses need to be interviewed in preparation of Defendant’s
defense. Each of these witnesses are either listed in the State’s file or
have been developed through partial investigation of Defendant’s case.
Counsel would be grossly negligent if these witnesses are not interviewed
before trial. Interviewing these witnesses will allow counsel to develop trial
strategy, prepare cross-examination, and allow Defendant to present a
credible and competent defense. In addition, the records that counsel has
requested will assist Defendant in preparing a mitigation presentation.
These records provide Defendant with information regarding the services
provided to him and his family, observations and notes made by teachers,
caseworkers, investigators, and judges, and actions taken by these same
people towards Defendant and his family. This information is relevant as
mitigation evidence to show a jury the Defendant’s life history, family
dysfunction, mental and emotional trauma, and ultimately to show why the
Defendant should not die at the hands of the State.

51

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 52 of 58 PageID #: 5767

72a

The motions for continuance, presented by Tammy Harris during a pre-trial
hearing, were denied. 17 However, unrebutted testimony was presented at this Court’s
evidentiary hearing that---during off record conferences between counsel and the trial
judge---the judge informed counsel that he would, in fact, grant a continuance, but only if
Marczuk, lead counsel, requested one.

Marczuk was, according to the testimony,

informed of the judge’s position. Harris insisted the mitigation case was not prepared
and assumed Marczuk would agree to see the judge to facilitate a continuance.
However, without discussing the matter further, Marczuk chose to proceed to trial. 18
The result of trial counsel’s lack of investigation and preparation was an entirely
unconvincing case in mitigation, that failed to tell Thomas’s whole life story. Thomas’s
experts in mitigation relied on inaccurate and incomplete background information. Trial
counsel presented a total of three, rather insignificant, single page documents into
evidence for jury consideration. The family members and other lay witnesses that did
testify were unprepared and underutilized.
Much argument has been made about the reasonableness of trial counsel to
proceed to trial and the decision to hold back on certain mitigation evidence for fear of
“opening the door” with regards to the Oklahoma crimes which Thomas is alleged to have
committed. The Court acknowledges that such considerations are important. Although
strategic choices are given deference, Astrategic choices made after less than complete
investigation are reasonable precisely to the extent that reasonable professional
judgments support the limitations on investigation.@

17

Strickland, 466 U.S. 668, 691

Lead Counsel, Lou Marczuk, did not attend this hearing.
Testimony of Tammy Harris, January 30, 2017 Evidentiary Hearing, Volume 3, p. 368; 378-386;
Volume 4, p. 777; 788-797.

18

52

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 53 of 58 PageID #: 5768

73a

(1984). As further set forth by Strickland, Acounsel has a duty to make reasonable
investigations or to make a reasonable decision that makes particular investigations
unnecessary.@ Id. Here, the Court finds that this strategic argument simply cannot
neutralize a lack of preparation. Not only did trial counsel fail in one of the most important
aspects of their job---discovering and developing mitigating circumstances for
presentation to the jury---but trial counsel utterly failed to investigate the facts of the
accused crimes that Respondent now argues were strategically kept from the jury.
For all of these reasons, the Court finds that trial counsel was constitutionally
ineffective with respect to their presentation of the case in mitigation. And, as discussed
above, Thomas was prejudiced by this failure.
iv.

Was Post-Conviction Counsel Ineffective?

From the evidence presented, the Court finds that post-conviction counsel did very
little preparation with respect to Mr. Thomas’s case beyond reviewing the trial and
appellate court record. Post-conviction counsel performed very little, if any, review of the
19 bankers boxes which made up trial counsel’s collective file. Post-conviction counsel
did not request funding for an investigator or a mitigation specialist. Post-conviction
counsel did not consult with experts or interview mitigation witnesses. In fact, postconviction counsel failed to conduct any timely or meaningful interviews of trial counsel in
preparation for the Rule 37.5 hearing. Despite the fact that the continuance motions
served as a literal road map to making a case for ineffective preparation of the mitigation
case, post-conviction counsel demonstrated little or no interest in pursuing it. In fact,
post-conviction counsel actually testified that they viewed their main role as preserving
issues for federal review. The Court does not entirely understand what that means, but
53

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 54 of 58 PageID #: 5769

74a

it most certainly cannot excuse their failure to investigate any issues outside the four
corners of the court record, nor can it excuse their failure to present readily available
evidence in support of a claim they specifically recited as a premise of the Rule 37.5
petition.
Again, with respect to post-conviction counsel, under Strickland, the proper
standard Ais that of reasonably effective assistance. . . . reasonableness under prevailing
professional norms.@

466 U.S. at 687-688.

Clearly, Acounsel has a duty to make

reasonable investigations or to make a reasonable decision that makes particular
investigations unnecessary.@

Id. at 691.

The Court finds that under prevailing

standards post-conviction counsel has the same duties as trial counsel with respect to
investigation and cannot rely on the previously compiled record but must conduct a
thorough independent investigation. See American Bar Association Guidelines for the
Appointment and Performance of Defense Counsel in Death Penalty Cases, Guideline
10.15.1 (Rev. ed. 2003). The evidence before the Court is overwhelming---not only for
the reasons set forth above, but as buttressed by the testimony of Professor Sean
O’Brien

19

---that post-conviction counsel failed in meeting the minimum standard

necessary to fulfill their duty. Accordingly, the Court finds that the instant claims of
ineffective assistance of trial counsel were not effectively raised during the state postconviction proceedings, and Thomas was prejudiced as a consequence.

19

Law Professor Sean O’Brien opined as to the prevailing standards and duties of post-conviction
counsel. See Document 119-5, pp. 125-132.

54

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 55 of 58 PageID #: 5770

75a

D. Actual Innocence Exception to Procedural Default20
Finally, Thomas argues that he is actually innocent of capital murder.

The

Supreme Court has held “’[i]n appropriate cases’ the principles of comity and finality that
inform the concepts of cause and prejudice ‘must yield to the imperative of correcting a
fundamentally unjust incarceration.’”

Murray v. Carrier, 477 U.S. 478, 495

(1986)(quoting Engle v. Isaac, 456 U.S. 107, 135 (1982)).

Accordingly, “in an

extraordinary case, where a constitutional violation has probably resulted in the conviction
of one who is actually innocent, a federal habeas court may grant the writ even in the
absence of a showing of cause for the procedural default.” Id. at 496.

To qualify for

the “actual-innocence gateway” to defaulted claims, Thomas must establish that, in light
of new evidence, “it is more likely than not that no reasonable juror would have found
[him] guilty beyond a reasonable doubt.” Schlup v. Delo, 513 U.S. 298, 327 (1995). “[A]
petition supported by a convincing Schlup gateway showing ‘raise[s] sufficient doubt
about [the petitioner’s] guilt to undermine confidence in the result of the trial without the
assurance that that trial was untainted by constitutional error,’ hence, ‘a review of the
merits of the constitutional claims’ is justified.”

House v. Bell, 547 U.S. 518, 537

(2006)(quoting Schlup, 513 U.S. at 317).
Thomas argues that “for all the reasons that [he] was prejudiced by ineffective
assistance of counsel . . . he would suffer a miscarriage of justice if not allowed to present
his constitutional claims.” (Reply to Response to First Amended Petition, Doc. 29, p. 48).
Thomas further argues that he “can establish innocence of the death penalty necessary

20

Among other places, the actual innocence exception is discussed in the following pleadings:
Document 29, p. 47; Document 70, p. 25; and, Document 73, p. 18.

55

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 56 of 58 PageID #: 5771

76a

to excuse any procedural default of Claim 18”. 21 (Brief of Mickey Thomas, Doc. 70, p.
27). As set forth above, the Court finds Claim 18 without merit. See McKinnon v.
Lockhart, 921 F.2d 830, 833 n. 7 (8th Cir. 1990). Further, the Court, considering the
allegations, and the alleged new evidence concerning Thomas’s mental disorders, does
not find it more likely than not that no reasonable juror would have found Thomas guilty
of capital murder. 22 The Court finds that Thomas cannot satisfy the actual-innocence
exception to excuse his procedural default.
V. Conclusion
For the reasons set forth above, the Court GRANTS IN PART, AND DENIES IN
PART, the Amended Petition for Writ of Habeas Corpus (Doc. 9). The Amended Petition
is GRANTED with respect to Issue 10-1 because, although procedurally defaulted,
Martinez and Trevino permit this Court’s review, and the Court finds that Issue 10-1 is
substantial and that it merits relief. Each of the remaining claims set forth in Thomas’s
Petition are DENIED.
The Respondent is, therefore, ordered to either (1) retry the penalty phase of the
case or (2) stipulate to a life sentence. No later than MAY 31, 2017, the Respondent
shall file a status report informing the Court of her decision. To the extent Respondent
elects to retry the penalty phase, it must do so within 180 days thereafter.
The Court further finds that reasonable judges could disagree about this Court’s
conclusion with respect to certain issues. 28 U.S.C. § 2253(c)(2). The Court, therefore,
grants a certificate of appealability on the following questions:

21

In Claim 18, Thomas asserts that his sentences should be vacated because he suffered from severe
mental disorders and disabilities at the time of the offenses.
22 See § IV(C)(2)(b)(ii).

56

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 57 of 58 PageID #: 5772

77a

Case 6:14-cv-06038-TLB Document 124

Filed 03/31/17 Page 58 of 58 PageID #: 5773

78a

APPENDIX A
*

Point 1-5-1, Failure to Support Theory of Defense with Readily Available

Evidence, including the bases for this claim incorporated through Issue 10-1;
* Issue 1-13, Ineffective Assistance of Counsel with Respect to Suppression
Claim, including the bases for this claim set forth under Claim 14;
* Issue 1-14, Failure to Support Claim of Incompetency to Stand Trial with Readily
Available Evidence, including the bases for this claim incorporated through Issue 10-1
and Claim 15; and,
* Issue 10-1, Ineffective Presentation of the Case in Mitigation, including the
bases for this claim presented in each of the Points under Issue 10-1.
* Issue 1-11, Failure to Raise Claims of Juror Misconduct, including all bases for
this claim incorporated through Claim 11.
* Point 10-2-2, Trial Counsel Failed to Investigate for, Discover, and Present
Claims of Juror Misconduct, including all bases for this claim incorporated through Claim
11; and,
* Issue 13-2, Failure to Raise Claims of Jury Misconduct by trial counsel, including
all bases for this claim incorporated through Claim 11.

58

Appendix C

79a
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-1833
Mickey Thomas
Appellee
v.
Dexter Payne, Director, Arkansas Department of Correction
Appellant
No: 17-2380
Mickey Thomas
Appellant
v.
Dexter Payne, Director, Arkansas Department of Correction
Appellee

______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Arkansas - Hot Springs
(6:14-cv-06038-TLB)
(6:14-cv-06038-TLB)
______________________________________________________________________________
Before BENTON, GRASZ and STRAS, Circuit Judges
The request for panel rehearing is denied. To the extent that Thomas argues the waiver issue
requires supplemental briefing on procedural default as a matter of notice and opportunity to
be heard, we have fully considered the arguments in the petition for rehearing and conclude
further briefing is unnecessary in light of the petition itself and the fully developed record from
the district court proceedings. See King v. Kenma, 266 F.3d 816, 821-22 (8th Cir. 2001)
(enbanc); Dansby v. Hobbs, 766 F.3d 809, 824 (8th Cir. 2014) (a federal court addressing
procedural default on its own initiative must give fair notice and an opportunity to be heard);

Appellate Case: 17-1833

Page: 1

Date Filed: 10/08/2020 Entry ID: 4963831

80a

Kennedy v. King, 666 F.3d 472, 481-82 (8th Cir. 2012) (holding briefing before the district court
provides sufficient notice and opportunity to be heard on procedural default).

October 08, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 17-1833

Page: 2

Date Filed: 10/08/2020 Entry ID: 4963831

Appendix D

81a
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-1833
Mickey Thomas
Appellee
v.
Dexter Payne, Director, Arkansas Department of Correction
Appellant
No: 17-2380
Mickey Thomas
Appellant
v.
Dexter Payne, Director, Arkansas Department of Correction
Appellee

______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Arkansas - Hot Springs
(6:14-cv-06038-TLB)
(6:14-cv-06038-TLB)
______________________________________________________________________________
ORDER

The petition for rehearing en banc is denied. The petition for panel rehearing is also denied.
Chief Judge Smith, Judge Colloton and Judge Kelly would grant the petition for rehearing
en banc.
COLLOTON, Circuit Judge, dissenting from denial of rehearing en banc.
Having reversed a district court for relying sua sponte on procedural default without giving
a prisoner notice and an opportunity to be heard, Dansby v. Norris, 766 F.3d 809, 824 (8th Cir.
2014), this court should hold itself to the same standard. See also Day v. McDonough, 547 U.S.

Appellate Case: 17-1833

Page: 1

Date Filed: 10/15/2020 Entry ID: 4965966

82a
198, 210 (2006) (“Of course, before acting on its own initiative, a court must accord the parties
fair notice and an opportunity to present their positions.”). In this case, the State did not argue
procedural default on appeal, Thomas v. Payne, 960 F.3d 465, 471 n.3 (8th Cir. 2020), so appellee
Thomas did not have fair notice that the issue was “in play,” cf. id., and he had no reason to address
the point in his brief.
The panel’s order denying the petition for panel rehearing does not solve the problem: a
litigant’s ability to point out after the fact that he was denied notice and an opportunity to be heard
is not sufficient. A petition for rehearing, with its truncated length limit and distinct purpose, does
not serve as a brief on the merits, and the panel did not grant rehearing in any event. Even assuming
that a court of appeals may reverse sua sponte without notice or briefing when an issue is “raised
and briefed before the district court,” Kennedy v. Kemna, 666 F.3d 472, 481 (8th Cir. 2012), that
proposition would be inapplicable here. Thomas did not brief the disputed procedural default issue
in the district court; the State raised appellate default as to Issue 10-1 for the first time in a posthearing brief that was filed simultaneously with Thomas’s post-hearing brief. R. Doc. 122, at 23. The district court did not reach the issue, because it concluded that Thomas defaulted in the
initial state Rule 37 proceeding. R. Doc. 124, at 40.
Therefore, I would grant the petition for rehearing and allow supplemental briefing as
requested in the petition.
_________________________

October 15, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 17-1833

Page: 2

Date Filed: 10/15/2020 Entry ID: 4965966

Appendix E

83a

~1r\l*l l lllll2 lllll0 lllll1 lllllll
li lllll lllll lllll lllll lllll l l llll
0 R0 0 0 4 2 3 *
2010R000423
ORDER

RECORDED AND CERTIFIED ON
02/01/2010

02:17:03PH

IN THE CIRCUIT COURT OF SEVIER COUNTY, ARKANSÄ~s :

9

PATTI CHANEV - CIRCUIT CLERK
SEU IER COUIHV, ARKANSAS

STATE OF ARKANSAS

v.

PLAINTIFF

NO. CR-2004-52

MICKEY DAVID THOMAS

DEFENDANT

ORDER
On September 28, 2005, Petitioner Mickey David Thomas was convicted of
two counts of capital murder for the deaths of Mona Shelton and Donna Cary that
occurred on June 14, 2004. During the trial phase ofthese proceedings, Thomas was
represented by three (3) attorneys: Llewellyn J. Marczuk, Tammy Barris and
Norman Cox. Thomas received the death penalty on both counts. His convictions
were affirmed by the Arkansas Supreme Court on May 17, 2007.
In April 2009, Thomas filed his original petition seeking post-conviction relief
pursuant to Ruie 37.5 ofthe Arkansas Rules of Criminal Procedure. Subsequently,
Thomas filed an amended petition and a hearing was held on November 6, 2009. At
the hearing, the petitioner was present alang with his attomeys of record for postconviction proceedings, Jeffrey S. Harrelson and Jason Horton.
Rule 37.5 requires the court to make specific findings of fact with respeet to

1;r·.j,]

~,...

..._

LlHU i'L.o -

31

l

[\ :o.

„~

l

~

e

j...,("l

84a

each factual issue and specific findings of law with respeet to each legal issue. In as
much as the amended petition filed herein has numerous allegations, the court has
attempted to answer each allegation by following the format contained in the
amended petition. Therefore, the court's order will track the number and lettering of
said amended petition.
l. Petitioner claims he was prejudiced by the court's refusal to enhance the
prospective jury pool pursuant to Arkansas Code Annotated §16-32-301, 303. The
court finds this issue was raised on direct appeal and addressed by the Arkansas
Supreme Court in Thomas v. State, No. CR 06-439 (2007) where the Court found
there tobe no error in the trial court's refusal to enhance the jury pool.
2 - 4. Petitioner alleges he was denied his fundamental right to due process by
the court for the following; allowing a taped conversation between the petitioner and
petitioner's brother tobe introduced, allowing a witness to refer to the petitioner as an
imnate, and by denying petitioner's motion for directed verdict. The court finds
proper objections were made at trial by petitioner's attomeys as to all three. Further,
the court finds pursuant to Rule 4 - 3 (h) ofthe Rules ofthe Supreme Court, the
Supreme Court reviewed those adverse rulings and found no reversible error existed.
5. Petitioner next claims the court improperly instructed the jury as to second
degree murder. The jury did not find the Petitioner guilty of the lesser offense of
2

32

85a

murder in the first degree of which second degree is a lesser included instruction,
therefore petitioner's argumentismoot. Also, the Arkansas Supreme Court has
consistently ruled Arkansas' second degree murder statute tobe constitutional.
Finally, the Court reviewed this issue pursuant to the Arkansas Rule of Appellate
Procedure - Criminal l 0 (b) and found no error.
6. Petitioner argues no substantial evidence existed to warrant the inclusion of
aggravating circumstances in the jury instructions. The court finds the petitioner
introduced no evidence in support of this claim. To the contrary, from the trial record
the court finds there was in fact relevant evidence warranting the aggravating factors
given to the jury.
7. Petitioner next claims Arkansas' lethal injection is unconstitutional. The
Arkansas Supreme Court and recently the United States Supreme Court have ruled
this form of execution to be constitutional. Also pursuant to Arkansas Rule of
Appellate Procedure - Criminal l 0 (b), the Court reviewed this issue and found no
reversible error.
8. Petitioner claims to be a member of a elas s of persons for whom the United
States Supreme Court banned execution. The petitioner introduced no evidence in
support of this claim and therefore it is denied.
9. Petitioner next alleges that "mitigating circumstances" is not defined in
3

33

86a

Arkansas' death penalty statute. The court finds the Arkansas Supreme Court has not
only ruled on this issue contrary to petitioner's claim, but also pursuant to Ruie 10 (b)
reviewed the issue and found no reversible error.
l 0. Petitioner alleges several separate allegations of ineffective assistance of
counsel and this court will address each allegation. The court's conclusion and
finding is that defense counsel was not ineffective, and further finds that in none of
the separate allegations did petitioner ever prove that the outcome in this case would
have been different had any ofthe particular allegations of ineffectiveness not
occurred. The seminai case representing the standard for which counsel are
scrutinized when ineffectiveness is alleged is that of Strickland v. Washington, 466

US. 668 (1984). Strickland essentially provides that petitioner must show that (l) his
trial counsel' s performance was so deficient that they were not functioning in a
manner guaranteed by the Sixth Amendment, and (2) that petitioner was prejudiced
by trial counsel's deficient performance to the point that there isa reasonable
probability that, but for their errors, the outcome of the trial/penalty phase would have
been different. Trial counsel are entitled toastrong presumption that their conduct is
within reasonable professional standards, and that they are allowed great leeway in
making strategic and tactical decisions. Such decisions are not grounds for finding
counsel to be ineffective.
4

34

87a

a. That counsel was ineffective for not properly preserving petitioner's
objection conceming the court transferring the case to Pike County which
petitioner claims had a substantially smaller population of persons of his race.
The court finds there was no error in the change ofvenue to Pike County. The
court finds from the record of the venue hearing, the difference in African
American population of Pike County and Sevier County to be less than l%.
Further, petitioner introduces no evidence that any class of people were
systematically excluded from the Pike County Jury pool. The Arkansas
Supreme Court, although refusing to hear this issue on direct appeal, found it
did not rise to a Wicks exception and therefore not a reversible error issue
under the Court's review pursuant to Arkansas Rule of Appellant Procedure Criminal Rule 10 (b) (iv) and 10 (b) (v).
b. Trial counsel was alleged to be ineffective for failing to properly
preserve petitioner's objection concerning the court's venue change without
explanation. The court in reviewing the venue hearing finds that the case was
properly transferred to Pike County due to that county receiving the least trial
publicity of the other three counties in the judicial district. Thus, the court
finds the petitioner was not prejudiced.
e - h. Petitioner claims his attorneys were ineffective for; being
5

35

88a

impaired, failing to properly investigate, failing to properly cross-examine
witnesses, and failing to inquire as to the nature of petitioner's relationship to
the victims. The court finds petitioner introduced no evidence in support of
these claims. To the contrary, the court finds that petitioner's attomeys did in
fact adequately investigate the issues petitioner cites and adequately crossexamine witnesses.
i. Petitioner claims ineffective assistance of counsel for their failure to
introduce the testimony of Lt. Alex Mathis, that he did not see any evidence of
attempted rape at the seene where the two victims were found. Llewellyn
Marczuk testified at this hearing that although a condom found on the
petitioner at his arrest was introduced, the State never argued that the
petitioner' s intent was rape. He testified he did not want to draw attention to
that fact. Thus the decision to use the officer's testimony was one of trial
strategy. Further, the court finds that tobe a good tactical decision. The
officer's testimony about the crime seene would in no way negate the
evidence found on the Petitioner and would only bring to the jury's attention
what the prosecutor never mentioned. Finally, the petitioner failed to prove
how introducing said testimony would change the outcome of the trial.
j. Petitioner next claims counsel was ineffective for informing the jury
6

36

89a

that petitioner was "going to prison" prior to the jury reaching a verdict. Mr.
Marczuk testified that the evidence introduced of petitioner's guilt was
overwhelming and therefore he made a tactical decision to argue for a lesser
offense as opposed to arguing that the petitioner was not guilty. The court
finds this tobe trial strategy. Also, petitioner fails to prove how but for Mr.
Marczuk' s argument the outcome of this trial would have been different.
k. Petition alleges counsel was ineffective for failing to develop the
issue ofwhether Arkansas Code Annotated Section §5-4-602 (4) is
unconstitutional. Petitioner introduced no evidence in support of this claim.
Moreover, the Arkansas Supreme Court addressed the constitutionality ofthe
statute in the direct appeal. The Court found it to be constitutional.
Therefore, counsel was not ineffective.
l-t. Petitioner alleges that appellate counsel was ineffective for failing
to argue a variety of issues that were objected to by trial counsel and ruled
adversely on by the trial court. The Arkansas Supreme Court pursuant to Ruie
4 - 3 (h) ofthe Rules ofthe Supreme Court reviewed all adverse rulings to the
petitioner and found no reversible error. Therefore, counsel was not
ineffective for failing to argue these issues on appeal since clearly the
outcome of the appeal would not have been different if counsel had.
7

37

90a

11 - 13. Petitioner claims he was denied his fundamental right to due process
by the trial court for the following; not granting him a continuance prior to trial, using
Arkansas Code Annotated §5-4-602 (4), and using ajury instruction conceming
mitigation that uses the words "probably existed". All of these issues were raised on
direct appeal and addressed by the Arkansas Supreme Court, wherein the Court found
there tobe no error.
14. Petitioner claims he was denied his fundamental right to due process and
fair trial by the introduction of other crimes or wrongs. These items were previously
addressed in this Order under paragraph l 0, ineffective assistance of counsel. Once
again, these issues were objected to by trial counsel, but allowed introduced over said
objections by the trial court. As stated earlier, the Arkansas Supreme Court pursuant
to Rule 4-3 (h) ofthe Rules of Supreme Court reviewed all adverse rulings to the
petitioner and found no reversible error.
15-16. Petitioner claims he was denied his fundamental right to due process
by the introduction of victim impact evidence. The Arkansas Supreme Court
previously and in the direct appeal ofthis case upheld Arkansas' victim impact
statutes. Therefore, the petitioner was not unconstitutionally prejudiced by victim
impact evidence being introduced.
17. Petitioner argues cumulative error. The court is not persuaded by
8

38

91a

petitioner's argument that cumulative error isa proper doctrine for this court to
consider in cases alleging ineffectiveness of counsel. Therefore, the court denies this
claim by petitioner.
18. Petitioner claims actual innocence, however, introduced no evidence to
support this claim. To the contrary, as his lead trial counsel testified at the Rule 37
hearing, the evidence was overwhelming of the petitioner's guilt.
For all the aforementioned reason, the petitioner's claim for post-conviction
relief pursuant to Rule 37.5, Arkansas Criminal Procedure is hereby denied.

__ /

IT IS Sü ORDERED on this

r;,tfVq~/

_r"_ d::ia'
c1 y ofJannm:y; 2010.

~r---Circuit Judge

9

39

Appendix F

92a

IN THE CIRCUIT COURT OF SEVIER COUNTY, ARKANSAS

STATE OF ARKANSAS

PLAINTIFF

v.

NO. CR-2004-52

MICKEY DAVID THOMAS

DEFENDANT

AMENDED PETITION FOR POST-CONVICTION RELIEF
PURSUANT TORULE 37.5 A.R.Cr.P.

Comes the Petitioner, Mickey David Thomas, by and through his attomeys, Jeff
Harrelson and Jason Horton, and files this Amended Petition for Post-Conviction Relief
Pursuant to Rule 37.5 of the Arkansas Rules of Criminal Procedure, and states that he is
currently in the custody of the Arkansas Department of Correction pursuant to a sentence
of death imposed for two (2) convictions of Capital Murder in violation of his rights
under the Fifth, Sixth, Eighth and Fourteenth Amendments of the United States
Constitution and Article 2 of the Arkansas Constitution. The claims set forth herein are
asserted under those federal and state constitutional provisions and other authority as
cited herein.

l. CASE BACKGROUND

Petitioner was charged in Sevier County, Arkansas, for the June 14, 2004 deaths
of Mona Shelton and Donna Cary. The case was transferred to Pike County for trial, and
on

S~tember

28, 2005, Petitioner was found guilty of two (2) counts of Capital Murder

e:>

~- and ~tenced to death on both counts. The convictions and sentences were appealed to
--

-~ ·

C.)

,_·!

the 1)!kansas.Supreme Court which affirmed the convictions on May 17, 2007. A timely

!--:
was denied on June 21, 2007. A motion to reeall and stay mandate
. .·petilfon
)> for.,, .•.rehearing
_,

:

•• • ;J

::·... wa~·ant~d .~y the Arkansas Supreme Court on September 6, 2007.

·-:
~:::

-~

..

N
0

"· „;;

On December 20 2007, artomeys Jeff Harrelson and Edward Ray Keith, Jr. were

appointed to represent Petitioner in filing a Rule 37.5 petition. The order appointing
counsel and staying execution of the sentence was entered on December 26, 2007. Soon
State ofArkansas v. Mickey Thomas

Amended Ruie 37 .5 Petition

Page l of9

22

93a

after he was appointed, Edward Ray Keith, Jr. moved to Lubbock, Texas to accept a
capital murder defense staff position. Mr. Keith was not formally replaced by Jason
Horton until the end of 2008, after Mr. Horton ohtained the qualifications to represent
Petitioner herein. The time required to procure said change in counsel prompted orders
extending the time to file this Petition. The January 15, 2009, order extending time to file
this Petition provided a new filing deadline of April 16, 2009; hence, Petitioner's original
Petition was timely. Petitioner also filed a Motion to Amend Rule 37.5 Petition on April
16, 2009. It is pursuant to that Motion Petitioner now seeks to Amend his originai
Petition, to wit:

11. GROUNDS FOR RELIEF

l.

Petitioner was deprived of his Sixth and Fourteenth Amendment Constitutional

Rights when the trial court refused to enhance the prospective jury pool pursuant to
Arkansas Code Annotated § 16-32-301 and Arkansas Code Annotated § 16-32-303
(Supp. 2005).

2.

Petitioner was denied his fundamental right to due process and a fair trial when

the trial court allowed the introduction of an alleged taped conversation between
Petitioner and Petitioner's brother.

3.

Petitioner was denied his fundamental right to due process and a fair trial when

the trial court failed to grant a mistrial after witness Sonny Kimmel testified as to
Petitioner's custodial status, referring to Petitioner as an "inmate", during Petitioner's
case-in-chief.

4.

Petitioner was denied his fundamental right to due process and a fair trial when

the trial court denied his motion for directed verdict after the State rested and again after
the Petitioner rested.

State ofArkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 2 of 9

23

94a

5.

Petitioner was denied his fundamental right to due process and a fair trial when

the trial court instructed the jury that, to sustain the charge of second degree murder, the
State must prove Petitioner knowingly caused the death of the victims "under
circumstances manifesting extreme indifference to the value of human life", as that
instruction is unconstitutionally vague and a violation of Petitioner's Sixth and Eighth
Amendment rights.

6.

Petitioner was denied his fundamental right to due process and a fair trial because

no supporting or substantial evidence existed to warrant the inclusion of aggravating
circumstances in the jury instructions and/or admonishments.

7.

The death penalty, as administered by the State of Arkansas's lethal injunction

procedure, constitutes cruel and unusual punishment and is unconstitutional under the
Eighth Amendment to the United States Constitution.

8.

Petitioner is a member of a class of persons for whom the Supreme Court of the

United States banned execution inAtkins v. Virginia, 536 U.S. 304 (2002).

9.

The Arkansas death penalty statute is unconstitutional in that the term "mitigating

circumstances" is not defined.

l 0.

Petitioner was denied effective assistance of counsel pursuant to Strickland v.

Washington, 466 U.S. 668 (1984) based upon the following:

a.

Trial counsel was ineffective for failing to properly preserve Petitioner's
objection regarding the trial court's error in transferring the case to Pike
County, as Pike County has a substantially smaller population of persons
of Petitioner' s race.

State ofArkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 3 of9
24

95a

b.

Trial counsel was ineffective for failing to properly preserve Petitioner's
objection regarding the trial court's error in transferring the case to Pike
County "without explanation."

e.

Trial counsel, Llewellyn J. Marczuk, was ineffective at trial due to
personal issues that impaired his judgment.

d.

Trial counsel was ineffective for failing to properly investigate the
underlying allegations.

e.

Trial counsel was ineffective for failing to adequately cross-examme
witnesses.

f.

Trial counsel was ineffective for failing to properly investigate and present
mitigation evidence.

g.

Trial counsel was ineffective for failing to properly investigate and present
mental health issues.

h.

Trial counsel was ineffective for failing to inquire as to the nature of
Petitioner' s personal relationship with the victims.

l.

Trial counsel was ineffective for failing to secure the presence of Lt. Alex
Mathis and/or failing to use relevant portions of Lt. Alex Mathis'
testimony from a prior proceeding during Petitioner's case-in-chief to
rebut any inference that Appellant intended to sexually assault Mona
Shelton or Donna Cary prior to their deaths.

J.

Trial counsel was ineffective for informing the Jury that Petitioner was
guilty or that Petitioner was going to prison prior to the Jury reaching its
verdict.
Stale ofArkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 4 of9

25

96a

k.

Appellate counsel was ineffective for failing to develop the issue as to
whether Ark. Code Ann. Section 5-5-602(4) violates the Fifth, Sixth,
Eighth, and Fourteenth Amendments ofthe United States Constitution and
Article II of the Arkansas Constitution.

l.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by allowing the State to show a video of a high speed
chase that allegedly occurred after the deaths of Mona Shelton and Donna
Cary, and by denying a motion for mistrial based on same.

m.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by allowing the State to introduce evidence regarding a
condom and a length of rope found on Petitioner when he was
apprehended.

n.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by allowing the State to show a video from a Wal-Mart
store in violation of the best evidence ruie.

o.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by denying Petitioner's request for production of the
personnel files of the State's witnesses.

p.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by allowing the State to introduce evidence of Petitioner' s
theft of a car that occurred after the deaths of Mona Shelton and Donna
Cary.

q.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by denying Defendant's Motions to Suppress, thereby
Stale of Arkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 5 of9
26

97a

allowing the State to introduce evidence of physical evidence and
statements allegedly made by Petitioner to a police officer in violation of
Petitioner' s constitutional rights.

r.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by allowing the State to introduce inflammatory crime
seene photographs.

s.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by allowing the State to introduce a recorded phone call
between Petitioner and Petitioner's brother made while Petitioner was
incarcerated.

t.

Appellate counsel was ineffective for failing to argue on appeal that the
trial court erred by failing to grant a mistrial after Petitioner's counsel
alleged that at least one Jury member saw Petitioner in a police car prior to
the conclusion of the trial.

11.

Petitioner was denied his fundamental right to due process and a fair trial when

the trial court denied his requests for continuance.

12.

Petitioner was denied his fundamental right to due process and a fair trial based

on the trial court's use of Arkansas Code Annotated § 5-4-602(4), as said statutory
section is void for vagueness.

13.

Petitioner was denied his fundamental right to due process and a fair trial when

the trial court gave a jury instruction which imposed a nonstatutory burden on Petitioner
to prove that mitigating circumstances "probably exist."

14.

Petitioner was denied his fundamental right to due process and a fair trial due to

the introduction of other crimes, wrongs, or acts, including, but not limited to: (l)
State ofArkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 6 of9
27

98a

allegations regarding an Oklahoma theft charge that was ultimately dismissed; (2)
allegations conceming the theft of a vehicle that occurred after the deaths of Mona
Shelton and Donna Cary; (3) allegations conceming a condom and length of rope found
on Petitioner after the deaths of Mona Shelton and Donna Cary; and (4) any high speed
ehases that occurred after the deaths ofMona Shelton and Donna Cary.

15.

Petitioner was denied his fundamental right to due process and a fair trial by

allowing the use of a victim impact statute that fails to define "victim impact" and fails to
provide an uncontradictory procedure for the consideration of the evidence.

16.

Petitioner was denied his fundamental right to due process and a fair trial based

upon the introduction of victim impact evidence at sentencing that only encouraged the
Jury to respond emotionally and to arbitrarily base its decision on irrelevant matters.

17.

The cumulative errors in Petitioner's trial require that his conviction and sentence

be set aside.

18.

Petitioner's conviction and sentence should be set aside, as he is actually innocent

of the offense for which he was convicted.

Ill. CONCLUSION

WHEREFORE, PREMISES CONSIDERED, for all reasons set forth herein,
Petitioner, Mickey David Thomas, should be granted a new trial and all other relief to
which he may be entitled. Petitioner reserves the right to amend this pleading.

State ofArkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 7 of9

28

99a

Respectfully submitted,
JeffHarrelson and Jason Horton
Attomeys for Petitioner
BY:

,~

J/< -_

HARRELSON LAW FIRM, P.A.
300 State Line Avenue (71854)
Post Office Box 40 (75504)
Texarkana, Arkansas
Telephone: (870) 772-0300
Fax: (870) 772-0302

CERTIFICATE OF SERVICE

I, Jeff Harreslon, Attomey at Law, hereby certify that I have on this6th day of
November, 2009, served the foregoing by ELECTRONIC MAIL to the following
persons at the addresses so indicated:

Mr. Bryan Chesshir
Sevier County Prosecuting Attomey
Post Office Box 214
Ashdown, Arkansas 71822

State ofArkansas v. Mickey Thomas
Arnended Ruie 37.5 Petition

Page 8 of9

29

100a

VERIFICATION
STATEOF

~d)

COUNTY OF

§
§
§

&y~

COMES NOW, Mickey David Thomas, and states on oath that the matters and
things contained in the above and foregoing Petition are true and correct to the best of his
information, knowledge and belief.

/

tlai&flt

SUBSCRIBED AND SWORN to before me, this the
~dA/ , 2009.

State of Arkansas v. Mickey Thomas
Amended Ruie 37.5 Petition

Page 9 of9

30

~~

day of

